<html>
<title> - CONTINUING INVESTIGATION INTO THE U.S. ATTORNEYS CONTROVERSY AND RELATED MATTERS (PART II)</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
   CONTINUING INVESTIGATION INTO THE U.S. ATTORNEYS CONTROVERSY AND 
                       RELATED MATTERS (PART II)

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   COMMERCIAL AND ADMINISTRATIVE LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 21, 2007

                               __________

                           Serial No. 110-73

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov





                        U.S. GOVERNMENT PRINTING OFFICE

36-176                         WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001


                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. (BOBBY) SCOTT, Virginia    HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

           Subcommittee on Commercial and Administrative Law

                LINDA T. SANCHEZ, California, Chairwoman

JOHN CONYERS, Jr., Michigan          CHRIS CANNON, Utah
HANK JOHNSON, Georgia                JIM JORDAN, Ohio
ZOE LOFGREN, California              RIC KELLER, Florida
WILLIAM D. DELAHUNT, Massachusetts   TOM FEENEY, Florida
MELVIN L. WATT, North Carolina       TRENT FRANKS, Arizona
STEVE COHEN, Tennessee

                     Michone Johnson, Chief Counsel

                    Daniel Flores, Minority Counsel
                            C O N T E N T S

                              ----------                              

                             JUNE 21, 2007

                                                                   Page

                           OPENING STATEMENTS

The Honorable Linda T. Sanchez, a Representative in Congress from 
  the State of California, and Chairwoman, Subcommittee on 
  Commercial and Administrative Law..............................     1
The Honorable Chris Cannon, a Representative in Congress from the 
  State of Utah, and Ranking Member, Subcommittee on Commercial 
  and Administrative Law.........................................     3
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, Chairman, Committee on the 
  Judiciary, and Member, Subcommittee on Commercial and 
  Administrative Law.............................................     5
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.     7

                               WITNESSES

The Honorable Paul J. McNulty, Deputy Attorney General, United 
  States Department of Justice
  Oral Testimony.................................................     9
  Prepared Statement.............................................    11

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................    55
Answers to Post-Hearing Questions from the Honorable Paul J. 
  McNulty, Deputy Attorney General, United States Department of 
  Justice........................................................    57


   CONTINUING INVESTIGATION INTO THE U.S. ATTORNEYS CONTROVERSY AND 
                       RELATED MATTERS (PART II)

                              ----------                              


                        THURSDAY, JUNE 21, 2007

              House of Representatives,    
                     Subcommittee on Commercial    
                            and Administrative Law,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 12:11 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Linda 
Sanchez (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Sanchez, Conyers, Johnson, 
Lofgren, Delahunt, Watt, Cohen, Cannon, Smith, Keller, Feeney, 
and Franks.
    Staff present: Eric Tamarkin, Majority Counsel; Daniel 
Flores, Minority Counsel; and Elias Wolfberg, Professional 
Staff Member.
    Ms. Sanchez. This hearing of the Committee on the 
Judiciary, Subcommittee on Commercial and Administrative Law, 
will now come to order. I will recognize myself first for a 
short statement.
    The House Judiciary Committee began this investigation 4 
months ago to look into the possibility that partisan political 
considerations had driven the Bush administration's decision to 
fire U.S. attorneys last year.
    The purpose behind this investigation remains clear. Our 
justice system must remain free from the contamination of 
partisan politics, a cancer on our ability to enforce the rule 
of law. Put simply, the American people need to know that they 
will not be arrested or prosecuted for the reason of helping 
any political party win elections.
    Some Members of this Committee have expressed concerns that 
this investigation has been a fruitless attempt to embarrass 
the Bush administration. These statements are confusing and 
disappointing, to say the least.
    Since beginning this investigation, five senior Justice 
Department officials involved with the U.S. attorneys' firings 
have resigned or announced their intention to do so, including 
today's witness.
    There are now at least two internal Bush administration 
investigations into partisan maneuverings and related issues, 
including the possibility that the Attorney General tried to 
improperly influence the investigation.
    We have seen documents and heard testimony that the Bush 
administration used partisan considerations to hire assistant 
U.S. attorneys, immigration judges and civil rights watchdogs.
    Some of these critics have themselves voted to issue 
immunity to a former Justice Department official in order to 
compel her testimony, acknowledging the serious nature and 
troubling questions of this issue.
    Most troubling, however, were the recent statements by two 
former U.S. attorneys who are professional prosecutors whose 
expertise leads them to believe that there will be criminal 
charges as a result of the firings.
    All of these developments are a direct result of this 
investigation.
    Unfortunately, despite all that we have learned, we still 
do not have answers to two fundamental questions: Who made the 
decisions to put the fired U.S. attorneys on the termination 
list? And why were these particular prosecutors chosen?
    We have talked with every senior Justice Department 
official who was or should have been involved in a process to 
review and fire Federal attorneys. Each one has said, ``Not 
me.''
    We have also been presented with continually conflicting 
explanations for the mass firings of the U.S. attorneys, both 
in testimony and through a review of documents.
    Years after the plan to fire these prosecutors began, and 4 
months after we first started these questions, the Bush 
administration still cannot get its story straight.
    This hearing was called to help clear up some of these 
contradictions.
    Last month, the Judiciary Committee heard from Monica 
Goodling, former senior counsel to Attorney General Alberto 
Gonzales and the deputy's White House liaison. Ms. Goodling 
made specific allegations about the Deputy Attorney General, 
including that he testified inaccurately before Congress and 
that he misled Members of the Senate Judiciary Committee in a 
private briefing.
    I was particularly troubled when Ms. Goodling testified 
that a few minutes before the private Senate briefing was to 
take place, the deputy made clear to her that he did not think 
she should attend. The deputy suggested, if someone recognized 
her as the White House liaison, then the Members would be more 
likely to ask questions about the White House.
    In a private interview with Judiciary Committee staff in 
April, Mr. McNulty stated he had scant knowledge as to who was 
responsible for placing the U.S. attorneys on the firing list 
and why they were placed on the list. This is the same thing we 
have heard from every other senior Justice Department official 
who appears to have played a significant role in the firings of 
the nine U.S. attorneys.
    I hope that today Mr. McNulty will set the record straight 
and explain these matters to the American people and to the 
Congress.
    As we continue to work with the Department of Justice to 
get complete and honest testimony from officials in that 
department, it is also clear that the investigation must now 
include the White House. Despite mounting evidence 
contradicting the initial explanations by Attorney General 
Gonzales and other Administration officials about why the U.S. 
attorneys were dismissed and what role the White House played 
in the process, the White House has stubbornly refused to 
negotiate its unreasonable take-it-or-leave-it offer to this 
Committee.
    In March, the White House offered to make Karl Rove, his 
aides Scott Jennings and Sara Taylor, Harriet Miers and her 
deputy William Kelley, available for private discussions, only 
without an oath and without a transcript.
    These conditions condone perjury, promote confusion as to 
what was actually said, and do nothing to restore the trust and 
faith of the American people.
    I know we have bipartisan commitment to honesty, openness 
and transparency in Government. But off-the-record, behind-
closed-door conversations do nothing to advance these goals.
    Chairman Conyers and Chairman Leahy have rightfully 
rejected these conditions and I applaud their decision to issue 
subpoenas to the White House last week.
    While we recognize the institutional prerogatives of the 
White House, the issuance of the subpoenas was a necessary and 
last resort that will finally allow the American people to 
learn the truth about what happened.
    President Bush has recently complained about the length of 
this investigation, and I, quite frankly, agree with him. If 
the White House fully cooperates with our legitimate request 
for information, I believe that this investigation could be 
concluded very rapidly.
    Thank you, Mr. McNulty, for being here and I look forward 
to hearing your testimony.
    At this time I would now like to recognize my colleague Mr. 
Cannon, the distinguished Ranking Member of the Subcommittee, 
for his opening remarks.
    Mr. Cannon. Thank you, Madam Chair.
    Welcome, Mr. McNulty. We worked together for years on the 
House Judiciary Committee, and it is nice to see you here, nice 
to have you back. Not under the most pleasant of circumstances, 
granted, but it is nice to have you here.
    As you know, we are here to explore what happened in the 
dismissal of the U.S. attorneys last year.
    The Chairman and I disagree significantly on at least one 
point--actually, many points of her opening statement. There 
is, in fact, nothing wrong with firing U.S. attorneys--
nothing--at any time, for any reason. They serve at will.
    Mr. Clinton fired 93 attorneys, one of whom was 
investigating him in particular.
    So we hope that we can get to the bottom quickly of some of 
these things.
    You have testified exhaustively on this issue in your full 
day of staff interviews. And you testified in February before 
the Senate in both public hearing and at a private briefing.
    It has been an awfully long time since then. And what have 
we discovered in the meantime?
    At the start of this process, I stated unequivocally my 
interest in getting the facts out. But my concern was that this 
investigation would shun the facts in favor of political 
headlines. I am afraid that events have borne out my fears.
    As I stated at the Subcommittee's initial hearing on March 
6, the Department of Justice has shown in briefings and other 
communications of the Congress that there were legitimate 
reasons to opt for new leadership in certain districts. The 
evidence cited in the investigation to date has continued to 
support that interpretation.
    I decried at the outset the loose accusations of 
corruption, political retaliation and favoritism that have been 
bandied about. These accusations have yet to be substantiated.
    For example, not a single public corruption prosecution or 
investigation has been shown to have been halted or even slowed 
down because of the December dismissal of U.S. attorneys.
    I stressed at the start my concern with the political 
maneuvering of the majority disregarded the department's 
reasonable explanations for the purposes of stirring up 
partisan controversy for partisan gain.
    So why are you here today, Mr. McNulty, so long after the 
investigation began? Is it because the majority really wants to 
know what happened in the U.S. attorney dismissals? Or is it 
because when Monica Goodling was before us last month she 
presented an alluring he-said/she-said moment when she took 
issue, Mr. McNulty, with your Senate testimony and questioned 
whether you had been fully candid?
    If the majority is focused on knowing the facts, we would 
have called you months ago or asked you about these issues in 
your original or in a subsequent interview.
    We are here because the majority wants to feed the 
breathless reporting of scandal in the press and on the blogs 
with the hushed anticipation about who will throw whom under 
the proverbial bus.
    Frankly, I am not interested in seeing people hurt. And I 
really don't want to see the Department of Justice hurt as it 
is as a byproduct of these inexhaustible hearings. So before we 
start today I suggest that we take a step back and objectively 
look at what Ms. Goodling said and didn't say.
    She said that you were not fully candid about the 
involvement of the White House in the review of U.S. attorneys 
and request for resignations. But your testimony on that issue 
at your February 6 Senate hearing is consistent with evidence 
we have heard thus far.
    Ms. Goodling also mentioned she gave your chief of staff 
information about Tom Griffin and vote caging--that is 
gathering information about letters that don't go where they 
need to go--on the eve of your Senate testimony in February. 
She didn't say, however, that you received it from your chief 
of staff or that you had time to read it before the Senate 
testimony.
    In fact, Mr. Sampson's testimony to investigators suggests 
that the information that may have been given to you is subject 
to individual interpretation and emphasis. And your emphasis as 
it related to Mr. Cummins was that he was being removed for 
replacement and not for performance.
    And still some believe his removal was performance. Why? 
Because some interpreted the emphasis in the information 
differently.
    I could give you other examples, but time is short.
    Today is your opportunity to clear this up. During your 
interview, when you were questioned about your prior testimony, 
you answered: ``It is my full intention and I still am 
confident that I went before the Senate with a desire to speak 
truthfully, and I spoke truthfully based upon what I knew at 
the time.''
    After Ms. Goodling's testimony, you issued a statement to 
the same effect. It read: ``I testified truthfully at the 
February 6, 2007, hearing based on what I knew at the time. Ms. 
Goodling's characterization of my testimony is wrong and not 
supported by the extensive record of documents and testimony 
already provided to Congress.''
    I look forward to hearing your testimony to clear up any 
questions that remain on the record so that we can move on to 
other issues that will promote the good work of the Department 
of Justice instead of tearing it down.
    Thank you, and I yield back.
    Ms. Sanchez. Thank you, Mr. Cannon.
    I now would like to recognize at this time, Mr. Conyers, a 
distinguished Member of the Subcommittee and the Chairman of 
the Committee on the Judiciary.
    Mr. Conyers.
    Mr. Conyers. Thank you, Chairwoman Sanchez.
    And I, too, welcome Paul McNulty. I have known him longer 
than probably anybody on the Committee. He worked here at one 
time. And we welcome him as a friend and as a cooperative 
person for us to try to clear up some of the discrepancies that 
exist.
    But, you know, this Committee works in a bipartisan way 
more than ever. And I regret that my good friend Mr. Cannon 
continues to describe the conduct of the Democrats on this 
Committee as being politically motivated. And I regret that he 
chooses to do that because he has done it time after time in 
these hearings.
    And so I just want to try to correct at least one thing 
here: that a U.S. attorney can be removed at any time, for any 
reason.
    If that were correct, there would be no basis for any 
hearing. Obviously, there are some ways--well, you agree with 
me now, but you said the statement. I mean, you know, people 
aren't foolish. They are listening.
    There are reasons that a U.S. attorney can't be removed for 
any reason whatsoever or at any time. As a matter of fact, 
Attorney General Gonzales has repeatedly said there are times 
when it can't happen.
    So to start our hearing off with a former staffer in 
Judiciary, a person who can help us get to the bottom of this 
and to bring this to a close, seems to contradict my continued 
repeating about the bipartisanship of this Committee. And I 
really wish that we could start this off in a more friendly 
way.
    Mr. Cannon. Would the gentleman yield?
    Mr. Conyers. Of course. I can't refuse you at this point. 
[Laughter.]
    Mr. Cannon. The Chairman of the full Committee understands 
my great respect for him and, in fact, the bipartisanship with 
which, generally speaking, this Committee has operated.
    And I want to thank him for that. It has been a great 
pleasure over 10 years, 11 years now, to work with the Chairman 
on many issues where we have been on the same side.
    I tell my friends, you know, if you are philosophically 
clear, it is easy to work with people. And Mr. Conyers has been 
very clear philosophically.
    And the gentleman is correct in saying that there are 
reasons--I was giving a broad statement--there are particular 
reasons, and that goes to corruption. If you are removing 
someone from a U.S. attorney's office for a corrupt purpose----
    Mr. Conyers. Well, okay----
    Mr. Cannon [continuing]. That is not acceptable. And the 
gentleman is right; I want to acknowledge that.
    Mr. Conyers. Well, political firings is not acceptable, 
either, sir. Corruption, no. But you cannot fire a person in 
the U.S. attorney's office for political reasons.
    Mr. Cannon. You can fire a U.S. attorney for political 
reasons.
    Mr. Conyers. A U.S. attorney----
    Mr. Cannon. But not someone at a lower level, not a career 
person in the U.S. attorney's office.
    Mr. Conyers. Well, okay.
    Mr. Cannon. But I think we agree fundamentally on these 
things.
    I also wanted to add----
    Mr. Conyers. Wait a minute. Let's do this in a more 
organized way. I just yielded to you because we have got to be 
bipartisan.
    Now, nobody on this side of the aisle, Chris, has ever 
suggested that all the Republicans on this Committee are 
engaged in some attempt to defend blindly the Attorney General 
or the President. We stay away from that. As a matter of fact, 
if I hear them going in that direction, I am going to say the 
same thing to them that I am saying to you publicly.
    So let's have a hearing that doesn't accuse the people that 
have called a hearing.
    I am ultimately responsible for every hearing in this 
Committee. And we are not doing this for fun and games. This is 
a very serious matter that the person that he replaced has 
said, Mr. Comey, the former Deputy Attorney General, and many 
other Republicans and great lawyers and people whose political 
persuasions I have no idea of what it is about, have all said 
this is a very serious matter.
    And for a person of your rank and experience and friendship 
to start us off by saying the Democrats are just hunting for 
political fodder is something that hurts the bipartisan spirit 
that brings us together.
    Mr. Cannon. If the gentleman would yield, let me reiterate 
again my admiration for the gentleman and also for the Chairman 
of the Committee, Linda Sanchez, the gentlelady from 
California, with whom I have a very amicable relationship.
    But I think it would not be unfair to characterize the 
opening statement by the Chair as fairly direct and partisan on 
issues that are appropriate. So I am not criticizing the Chair.
    I do think that this issue needs to be drawn to a head. I 
appreciate the gentleman saying that on our side we have 
attempted to help move this thing forward, because we have 
wanted to get it out and resolved and done.
    Ms. Sanchez. If I could ask the gentleman to yield, just to 
respond to that.
    Mr. Cannon, I do enjoy a very good working relationship 
with you. I don't think that my opening statement was 
political. It merely states the fact of why we are continuing 
this investigation.
    And the fact that statements have been made that it is a 
purely partisan endeavor is belied by the facts. We have had 
five senior department officials resign or intend to resign. We 
have got investigations going on right now within the DOJ.
    There is ample evidence in the written testimony that we 
have received, in the oral testimony that we have heard in the 
Subcommittee and the full Committee that shows that this is a 
serious problem.
    It warrants our time and our attention and investigation. 
And it is not fabricated because it is supported by factual 
information----
    Mr. Conyers. May I get an additional moment----
    Ms. Sanchez. Without objection.
    Mr. Conyers [continuing]. Merely to point out that the part 
that is so important to me with Mr. McNulty today is the 
alleged caging of Black voters possibly involving Tim Griffin; 
the process where lists of voters to be challenged are 
generated?
    What we have been told is that Mr. McNulty may be able to 
help us on that subject. And I really hope he will. I trust 
that he will. He has been a person that we have known across 
the years.
    And it is, to me, very important that we review with Mr. 
Elston, your chief of staff, and try to figure out as much as 
we can.
    Now, this is not a meeting, an argument between lawyers on 
Judiciary. The whole of the country is trying to determine to 
what degree the Department of Justice, the ultimate enforcer of 
our laws, may have been politicized. And that is all we are 
trying to get at.
    And we keep asking very simple questions and now we have 
stacks of testimony that contradict--quite frankly, you don't 
have to be a lawyer to figure out that a lot of these 
statements are at loggerheads. They are contradictions.
    And all the Chairman wants to do is try, to the best of her 
ability, to get to the bottom of this. We issue subpoenas very 
rarely, only when we have to.
    But it is the White House that has made you gentlemen and 
ladies at the Department of Justice look great. They haven't 
responded to beans. And of course the natural flow of legal 
documents will have to follow that.
    And I thank the gentlelady.
    Ms. Sanchez. Thank you. The time of the gentleman has 
expired.
    At this time, I would now like to recognize the 
distinguished Ranking Member of the full Judiciary Committee 
for an opening statement. Mr. Smith?
    Mr. Smith. Thank you, Madam Chair.
    Mr. McNulty, your extended welcome continues, and I welcome 
you as well.
    We are here primarily as a result of Monica Goodling's 
hearing in May. Ms. Goodling's testimony was consistent with 
what we have heard so far. After more than 3 months of 
investigation and as much as the Committee hunts, the evidence 
does not support the conclusion that U.S. attorneys were 
wrongly dismissed.
    What did we learn from Ms. Goodling? That Ms. Goodling, the 
Justice Department's former White House liaison, never spoke to 
Karl Rove or Harriet Miers about whether U.S. attorneys should 
be dismissed for partisan purposes.
    This was seismic news because the force behind this 
investigation has always been to see if White House 
partisanship lurked behind the U.S. attorney dismissals.
    Ms. Goodling's testimony was a long-awaited burst of 
sunlight helping to dispel that fog of suspicion.
    However, we are not here to discuss, as we might be, 
whether to bring the investigation of the U.S. attorney 
dismissals to a close. On the contrary, we appear to be meeting 
to discuss what information Ms. Goodling says she shared with 
you, Mr. McNulty, or your staff about the U.S. attorney 
dismissals prior to your Senate testimony in February; whether 
you were aware of that information; and if you were, why you 
did or did not convey some of that to the Senate.
    I find this a little odd for several reasons.
    First, this exercise is not about whether there was any 
real wrongdoing in the U.S. attorney dismissals themselves. It 
is not about whether the Administration did anything other than 
exercise its privilege to dismiss presidential appointees who 
were serving, in fact, at the President's pleasure.
    Instead, it is about the after-the-fact steps that 
Administration took to explain its position that there was no 
wrongdoing. So-called scandals about attempted explanations 
have become a subplot of Washington theater.
    Second, what Ms. Goodling said was actually a long way from 
saying that you, Mr. McNulty, had intentionally misled Congress 
in explaining the department's actions.
    Finally, I find today's hearing a little odd because our 
staff, along with the Senate staff, interviewed you long ago 
specifically about your Senate testimony. Following your 
interview, the majority made no urgent calls to bring you 
before us for a hearing. That call came only after Ms. Goodling 
was thought to have provided some additional dry grist for the 
press mill.
    This hearing is really about another innocuous explanation 
of yet another issue overblown by premature speculation. If 
that is what we hear, I hope that we will listen and proceed 
accordingly. Let's respect the evidence rather than clinging to 
prejudgments.
    So, again, welcome. I look forward to your explanation, and 
hope that the hearing helps us move the investigation toward 
its natural and rightful conclusion.
    Madam Chair, before I close, let me mention some new 
information that has just come to my attention this morning.
    The Committee majority has opened a new Web site. This Web 
site purports to solicit evidence, but it actually appears to 
be a partisan persecution of the Administration.
    Let me quote: ``The Web site proclaims that it is designed 
to receive on a completely confidential basis any information 
concerning the possible politicalization of the United States 
Department of Justice since 2001.''
    It explicitly silences anyone who might want to offer 
information about any other Administration: ``The incoming 
communications should be limited to those who represent that 
they are or were employed by the Department of Justice during 
that period since 2001.''
    Moreover, there is no pretense that the information 
received will be shared and vetted with the minority. To quote: 
``The communications will be received and reviewed by a select 
group of members of the majority staff of the Judiciary 
Committee of the United States House of Representatives.''
    The minority was not notified about this Web site, which in 
fact is paid for with taxpayer funds. We have talked to the 
House parliamentarians, and they are ``very troubled'' as well.
    This Committee, I am sure we all would agree, should not 
engage in the partisan persecution of the Administration's 
public officials.
    And, Madam Chair, let me say I hope that this Web site was 
not set up with any Member's knowledge. And I trust it will be 
taken down immediately.
    And now I will yield back the balance of my time.
    Mr. Cannon. Will the gentleman yield?
    Mr. Smith. And I will be happy to yield----
    Ms. Sanchez. The gentleman yields back his time, and, 
unfortunately, the gentleman was out of time.
    Mr. Cannon. He wasn't. He had half a minute left.
    Ms. Sanchez. Four seconds.
    Mr. Cannon. You can't tell the 4 seconds from a half a 
minute on a clock that has colors. Thank you.
    Ms. Sanchez. Okay.
    I want to thank the distinguished Ranking Member for his 
statement and state for the record I did not have knowledge of 
the Web site. We will review it and make sure that it is an 
appropriate Web site. And if there are problems with it, we 
will take the necessary steps to correct that.
    Without objection, the Chair will be authorized to declare 
a recess of this hearing.
    At this time, I am now pleased to introduce the witness for 
today's hearing.
    Deputy Attorney General Paul McNulty is our sole witness 
today. Mr. McNulty was appointed as Acting Deputy Attorney 
General in 2005 and was confirmed in March of 2006.
    Prior to that, he served as United States attorney for the 
Eastern District of Virginia. Mr. McNulty also served with the 
House Judiciary Committee, first as chief counsel to the House 
Subcommittee on Crime and then as chief counsel and 
communications director for House Judiciary Committee 
Republicans.
    Mr. McNulty, thank you again for joining us this morning. 
We understand that you wish to make an opening statement before 
taking our questions. And so, we will allow you to do that at 
this time. You may begin.

  TESTIMONY OF THE HONORABLE PAUL J. MCNULTY, DEPUTY ATTORNEY 
          GENERAL, UNITED STATES DEPARTMENT OF JUSTICE

    Mr. McNulty. Madam Chair and Chairman Conyers, Members of 
the Subcommittee, thank you for the opportunity to allow me to 
come here today and speak to you.
    And as I leave the Department of Justice, I have been 
thinking a lot about my 22 years of public service. And many 
significant events and great memories during that time occurred 
in this room. I spent 8 years with the House Judiciary 
Committee, and I am thankful for the experience I had here and 
the many lessons I learned here.
    One of the lessons that I learned here during my time was 
that character matters. And at my confirmation hearing for the 
job of Deputy Attorney General, I was asked how I would handle 
a potential conflict between the values of integrity and 
loyalty. Senator Schumer asked me that question.
    I responded by saying that in my view the values of 
integrity and loyalty never conflicted. Integrity always trumps 
loyalty.
    And so, I have sought, by God's grace, to act with 
integrity in all that I have been called to do. And, yes, that 
includes the many, many times that I have testified before 
Congress.
    So when I testified in February before the Senate Judiciary 
Committee, I testified truthfully, based on the facts that I 
knew at the time.
    In the months since then, we have all had a chance to 
review thousands of documents from within the department and 
Congress has heard dozens of hours of testimony and interviews 
from me and others at the department. I was interviewed for a 
full day.
    We have learned that my knowledge at the time I testified 
about the replacement of the United States attorneys was, in 
some respects, incomplete. But I want to be clear today that at 
all times I have sought to provide Congress with the truth as I 
knew it.
    I also want to be clear that I do not believe and have 
never believed that anyone in the Department of Justice set out 
to intentionally mislead me so that I might provide Congress 
with inaccurate information about this matter.
    To the contrary, I believe that thousands of documents that 
have been produced demonstrate only that in the weeks before my 
testimony many in the department struggled with the question of 
how to best provide Congress with accurate information about 
the removals of the United States attorneys in a way that was 
consistent with our efforts to protect the reputations of the 
United States attorneys involved.
    And I appreciate today to have the opportunity to discuss 
these matters with the Committee. And I look forward to your 
questions.
    One final point: I have served in the department under two 
Administrations and in many leadership positions. I have been 
the Deputy Attorney General. I have been the principal 
associate Deputy Attorney General. I have been the director of 
policy and communications. And for 4\1/2\ years I was United 
States attorney in the Eastern District of Virginia.
    I am very familiar with how the Department of Justice 
works. And the public needs to know that when it comes to 
enforcing the law, Justice Department employees are blind to 
partisan politics. It plays no role in the department's 
actions.
    The law enforcement professionals, lawyers and staff at DOJ 
check their politics at the door and investigate and prosecute 
cases based strictly on the facts and the law. That is what I 
have consistently observed over a period of 9 years at the 
Department of Justice.
    It has been an extraordinary honor and privilege for me to 
be associated with the finest group of professionals you will 
ever find serving in a Government department or agency. I 
greatly enjoyed my time at the Department of Justice.
    So I thank you for the opportunity to be here. And I am 
pleased to answer any of the questions that you may have.
    [The prepared statement of Mr. McNulty follows:]
                 Prepared Statement of Paul J. McNulty
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Sanchez. Thank you, Mr. McNulty.
    Subcommittee Members will be permitted to ask questions 
subject to the 5-minute limit. And I will begin by recognizing 
myself for the first set of questions.
    Ms. Goodling, in her testimony before the full Committee, 
stated that, ``As the plan was approved and updated the deputy 
was involved and kept updated and also that the deputy 
certainly knew that Mr. Sampson had been working with several 
offices in the White House for some period of time, and 
certainly understood that they had signed off and were involved 
in the decision.''
    I am curious in getting your response to Ms. Goodling's 
statement that your Senate testimony was knowingly incomplete.
    Mr. McNulty. Well, that involves going into four areas that 
Ms. Goodling identified where she believed or she characterized 
my testimony as being less than candid. I know you are going to 
be pressed with your time, so we will have to try work through 
the four.
    You have raised the first of the four--it has to do with 
knowledge of the White House--so let's take that one on.
    Senator Schumer asked me at my hearing about what I knew 
about the White House involvement. And I said, ``These are 
presidential appointments. So White House personnel, I am sure, 
was consulted prior to making the phone calls.'' And that is 
exactly consistent with what I knew at the time, and that is a 
true statement.
    Ms. Sanchez. So you dispute, then, the statement by Monica 
Goodling that you had been updated and involved and kept 
updated and knew that Mr. Sampson had been working with several 
offices in the White House for some period of time.
    Your statement before the Senate Committee is a very 
general statement, will you agree to that? To say, ``Well, you 
know, these are political appointees and so I am sure the White 
House was involved.''
    It is a little bit more specific to know that they have 
been updated or that communications are going back and forth 
between the White House and the DOJ. And you don't think that 
was an accurate reflection of your knowledge at the time?
    Mr. McNulty. No, my statement at the Committee hearing was 
very accurate and truthful. And what Ms. Goodling said to you 
in your exchange at this hearing does not contradict the 
truthfulness of my statement.
    What she was describing was what my role was in this 
process.
    When I first learned of this, first consulted, it was in 
October, not before that, and so I had no knowledge of any plan 
to remove U.S. attorneys prior to October of 2006, and 
therefore no knowledge of any White House contacts or White 
House involvement.
    After I was consulted, which has been described by the 
Attorney General and by Mr. Sampson I was consulted in October/
November, that information or that list of names was sent to 
the White House. The White House sent back its concurrence. And 
that is the awareness I had of the White House involvement----
    Ms. Sanchez. But you were aware of the White House 
involvement prior to your testimony before the Senate 
Committee.
    Mr. McNulty. That is what I said: that the White House was 
involved in approving the names.
    Ms. Sanchez. But your statement----
    Mr. McNulty. So I was very accurate.
    Ms. Sanchez. It seems to me that your statement before the 
Senate was less than completely candid about the fact that the 
White House was involved----
    Mr. McNulty. With all respect, Madam Chair, I believe that 
is an incorrect characterization of my testimony. I believe my 
testimony was dead-on accurate in what I knew at the time: that 
the White House had approved the names. And that is how I 
responded.
    Ms. Sanchez. So you dispute Monica Goodling's testimony 
that you had been kept updated and had known that several 
offices in the White House had been communicating?
    Mr. McNulty. Well, what she is saying there is she is 
referring to, I assume, what I did know, which is what occurred 
from October forward. And to the extent----
    Ms. Sanchez. But October forward was prior to your 
testimony before the Senate, was it not?
    Mr. McNulty. And that is why I knew that the White House 
had been consulted and kept informed, because from the point I 
first learned about it until I testified, I was aware of the 
White House's involvement at that point.
    Ms. Sanchez. I understand that you were aware of the White 
House's involvement. But the statement that you gave before the 
Senate Committee strikes me as a very broad statement, not a 
very specific statement as to what extent the White House was 
involved. And I think that it could have been a little 
misleading in that it didn't give the specifics of what you 
knew at the time that you testified.
    Mr. McNulty. Can I say one more----
    Ms. Sanchez. We may dispute that, but----
    Mr. McNulty [continuing]. Very important issue. I just 
think it is fair for me to be able to respond to what you just 
said.
    Ms. Sanchez. I don't actually have your quote in front of 
me. I believe that you expressed it. And if you wouldn't mind 
repeating that again, I think that it contradicts the very 
specific knowledge that you had that the White House was 
involved.
    Mr. McNulty. Okay, I will be happy to repeat again. And, 
Madam Chair, let's remember this occurs in a question-and-
answer moment like you and I are having right now.
    Ms. Sanchez. Correct.
    Mr. McNulty. So Senator Schumer said, ``Was the President 
involved?'' That was his first question. And I said, ``I don't 
know.''
    And then he said, ``How about the White House? And my 
response when he asked about the White House was, ``These are 
presidential appointments, so White House personnel, I am sure, 
was consulted prior to making the phone calls.''
    And that is exactly what I knew: that the White House had 
been consulted prior to our making those phone calls on 
December 7. So I answered the question to the best of my 
ability.
    And one more point: You know, after this was all over, 
after I testified, we produced all these e-mails. And when you 
look at all the e-mails you can learn things from them that 
refresh memory or provide more specificity.
    And so one of the e-mails produced, a December e-mail, 
shows the White House getting back to the department and saying 
specific offices were signed off on the idea.
    But, of course, I wouldn't have had the benefit of 
refreshing my memory with that e-mail on February 6. I could 
only remember that we submitted it to the White House and the 
White House approved it, and that is how I answered the Senate 
question.
    Ms. Sanchez. Well, pardon my skepticism--and my time has 
expired--but I think an unduly broad statement like that was 
not helpful before the Senate Judiciary Committee. And, again, 
it directly contradicts other testimony that was given before 
this Subcommittee, and I find that troubling.
    My time has expired. I would now like to recognize Mr. 
Cannon for 5 minutes of questioning.
    Mr. Cannon. Thank you, Madam Chair.
    During your interview, you stated as follows on page 165: 
``I believe that information that has come to light as a result 
of this process is information that the Senate would very much 
have wanted at the time they were gathering information from 
me, particularly. But I haven't reached a conclusion that any 
one person misled me in that process.''
    Today, do you stand by that statement that you haven't 
concluded that any one person--for example, Ms. Goodling--
misled you?
    Mr. McNulty. That is right. I stand by that statement. I 
made that in my interview and I have believed that all through 
the process, that no one in particular misled me when I was 
trying to get ready for my hearing.
    Mr. Cannon. And nothing from that time until the present 
has led you to a conclusion that someone did mislead you?
    Mr. McNulty. No, I have not made that accusation.
    Mr. Cannon. Have you any reason to believe that someone 
did, whether you made the accusation or not?
    Mr. McNulty. No, I do not have that reason to believe.
    Mr. Cannon. Thank you, Mr. McNulty.
    It has been reported that in early March, you and Senator 
Schumer had a conversation in which you suggested to Senator 
Schumer your disappointment that you had not been able earlier 
to provide information that was then coming to light. In your 
staff interview, you suggested that you and Mr. Schumer might 
have different memories of that conversation. Could you please 
explain that to us?
    Mr. McNulty. Well, when the documents all came to light 
that we are all familiar with at this point, Senator Schumer 
and I had a brief telephone conversation. It was very brief. In 
that conversation, I expressed to him my disappointment that I 
did not have that information at the time I testified. He 
understood that and that was basically the extent of it.
    And so my point is that I didn't accuse anybody or 
purposely withholding that information. I expressed my 
disappointment that information which I am sure Congress would 
wanted to have had was not provided at that time, but only came 
later, after those documents came to light.
    Mr. Cannon. There has been much concern about the 
possibility that some of the U.S. attorneys were dismissed 
while their offices were in the middle of sensitive cases with 
political ramifications.
    As Deputy Attorney General, and as a former U.S. attorney, 
what is your reaction to this suggestion that the department 
shouldn't dismiss U.S. attorneys while their offices are in the 
middle of such cases?
    Mr. McNulty. Well, my problem with this view is that 
dismissing a U.S. attorney or a U.S. attorney leaving in the 
middle of an investigation doesn't fit with the reality of how 
investigations work.
    The fact is that all investigations, whether it is public 
corruption or other types, are conducted by career agents, 
worked on by career assistant United States attorneys, and they 
go on for long periods of time potentially.
    If it was the case that the removal of a U.S. attorney or 
the resignation for any reason whatever disrupted a case, we 
could never change U.S. attorneys. We would have U.S. attorneys 
serve just from Administration to the next, there could never 
be a possibility of a switch, because you would have this 
problem of disruption.
    That is why the system is designed the way it is, to have 
career people doing the investigations, career prosecutors 
working the cases, so that a change of U.S. attorneys does not 
disrupt it and that the work continues to go on just fine.
    When I left the Eastern District of Virginia, I might have 
liked to think that I was critical to everything that was 
occurring there, but the truth is that the office continued 
along just fine, and my departure did not affect the ongoing 
work of that office.
    And I think that is something being lost in a lot of this 
discussion about U.S. attorneys coming and going.
    More than half the U.S. attorneys who served with me at the 
start of this Administration have left the position of U.S. 
attorney by now. And, again, in the 94 Federal districts, the 
work continues to go on.
    Mr. Cannon. So a U.S. attorney has a responsibility to be 
responsive to the President's priorities and at the same time 
is dispensable. So he or she can organize the office's 
priorities, like Ms. Lam testified that she was not important 
to the investigation of Mr. Cunningham, for instance, because 
the system would hold that.
    And on the other hand, that is not inconsistent to say she 
was great at what she did, but she didn't do what the 
Administration expected of her and was very clear in setting 
its priorities for her.
    Mr. McNulty. Right. Setting the priorities is one of many 
tasks that the U.S. attorney is in a unique position to do. And 
that sends the right message to the agents and to the 
prosecutors as to the kinds of cases that we want to try to 
accomplish in this district, and then they go about doing that 
work on the specific cases.
    So, again, it is a difference of responsibilities. 
Priority-setting is definitely an important responsibility for 
a U.S. attorney.
    Ms. Sanchez. The time of the gentleman has expired.
    Mr. Cannon. I thank the gentlelady and yield back.
    Ms. Sanchez. Thank you, Mr. Cannon.
    At this time, I would now like to recognize Mr. Conyers for 
5 minutes.
    Mr. Conyers. Thank you so much.
    Thank you, Mr. McNulty, for your candor and your being 
present here.
    Let me just get this out of the way. You know, both the 
House and the Senate Judiciary Committees have issued subpoenas 
to the White House, and several former White House officials, 
for documents and testimony in the controversy that is before 
us. And we are still hopeful that they may cooperate. But it is 
possible that enforcement action may need to be taken.
    What is the policy of the Department of Justice with 
respect to United States attorneys helping to enforce such 
congressional subpoenas?
    Mr. McNulty. Well, first of all, on a question of the 
document production and providing things to the Congress, I am 
recused on that matter. So I don't have any involvement or 
knowledge of where things stand, as to what has been provided 
or not provided.
    And as to your question about the policy of the department 
with regard to enforcement, I don't want to respond off the top 
of my head. I would have----
    Mr. Conyers. Let me help you. Would you help us bring 
charges of criminal contempt if these subpoenas are resisted? 
Because that may likely be the next step. Hoping that we don't 
have to do that.
    Mr. McNulty. Well, I would have to say that my recusal on 
this question would extend to the question of how subpoenas are 
enforced or not enforced. So I would not be involved in that 
question.
    Mr. Conyers. Well, do you know----
    Mr. McNulty. I am recused because the documents, in part, 
are documents that can come from the Deputy Attorney General's 
Office. And so, all officials who are leading offices where 
documents----
    Mr. Conyers. But we are not talking about you weighing the 
credibility of the documents or the witnesses. We are just 
talking about us having to bring criminal charges if our 
subpoena isn't obeyed.
    We don't want you to become a member of the Federal court 
yet. We just want you to do what the Department of Justice 
ought to be doing.
    Mr. McNulty. Well, Mr. Chairman, I hear your question in, 
sort of, two parts. First, I hear, sort of, a general question 
about enforcement of subpoenas. And then, secondly, I hear you 
asking about enforcement of particular subpoenas that be 
associated with these documents that you are seeking.
    Mr. Conyers. Are you interested in either one?
    Mr. McNulty. As to the second question, that is where I say 
my recusal would clearly extend. I would not be involved in a 
question of whether or not the subpoenas are to be enforced or 
not enforced.
    And as to the first, I said I wanted to be careful before I 
speculated as to what a policy is, because I am not sure I 
could articulate a clear policy just sitting here right at the 
moment.
    Mr. Conyers. Okay. Let me quickly go to the White House was 
consulted on this matter. Who in the White House was this 
consultation with?
    Mr. McNulty. Well, if you look at the records that have 
been produced to the Committee, what you see is there was a 
November 7 e-mail that was sent by Kyle Sampson over to the 
White House counsel's office, submitting names and a plan for 
how the U.S. attorneys would be contacted and how the process 
would proceed----
    Mr. Conyers. But over and above that, what did you know 
about it? I mean, we all know that, that is----
    Mr. McNulty. Right. That is what I was referring to----
    Mr. Conyers [continuing]. Public information.
    Mr. McNulty. Well, actually, that is my point----
    Mr. Conyers. Look, you are the number-two man in this 
operation. Let me ask you directly, was it through consultation 
with Harriet Miers?
    Mr. McNulty. Well, that e-mail I am referring to----
    Mr. Conyers. I am not referring to an e-mail.
    Mr. McNulty. Well, that is my knowledge of the consultation 
process.
    Mr. Conyers. You don't know anything about it other than 
that? And that was an e-mail that came subsequently.
    In other words, you have cut yourself out of the loop here 
on this matter. It is kind of hard--and I believe you, you 
know. You are a very trusted ex-former staffer on Judiciary 
Committee. Remember that.
    But we want to know where the lines go from the Department 
of Justice to the White House. That is where these bread crumbs 
keep leading us, and then they get lost in the snow or 
something out here.
    Ms. Sanchez. The time of the gentleman----
    Mr. Cannon. Could I ask unanimous consent that the 
gentleman's time be extended for a couple of minutes at least? 
Because I think that the Chairman is getting to the point of 
this hearing, and I would love to get the answers to these 
questions. So I ask unanimous consent that the gentleman be 
granted an additional 2 minutes.
    Ms. Sanchez. Without objection, so ordered.
    Mr. Conyers, you may continue for 2 additional----
    Mr. McNulty. May I respond, Mr. Chairman?
    Mr. Conyers. Yes, sir.
    Thank you, ma'am.
    Mr. McNulty. Well, you referred to my knowledge as being 
out of the loop.
    And the information I provided to you in my day-long 
interview and the information you see in the e-mails, and 
perhaps most importantly what the Attorney General said in his 
testimony and what Kyle Sampson said in his testimony, explains 
that I was consulted in this process at the end of what we now 
know to be the process; that is, there was a process which 
extended over a 2-year period of time looking at different U.S. 
attorneys, and Kyle Sampson described his consultations with 
lots of different officials.
    At the end of that process, or near the end, I was 
approached, consulted. Kyle Sampson explained that he was told 
by the Attorney General, ``Go get the deputy's input.''
    So he came to the deputy in October. I provided my feedback 
to the process. And that is how I began--and, Madam Chair, this 
goes right to the question that you were asking earlier----
    Mr. Conyers. Okay.
    Mr. McNulty. That, again, is my knowledge, sir, of how the 
White House was involved.
    Mr. Conyers. Okay.
    Now, we had testimony from the liaison to the White House 
that she was told not to attend your briefing for the senators 
on the United States attorney firings because if someone 
recognized her as the White House liaison, there would be a 
greater likelihood that there would be questions asked about 
the White House. Remember?
    Mr. McNulty. I remember what she said to the Committee, 
yes.
    Mr. Conyers. No, what you said to her.
    Mr. McNulty. What happened there was, as best I can 
remember, as we went up into that Senate briefing, my focus was 
on providing the information that we had promised concerning 
the reasons for seeking the removal, the resignations, of the 
seven U.S. attorneys.
    And my sense was at that time--again, this is before 
documents have come to light--that this was something the 
Department of Justice had done on its initiative, to look at 
individuals based on issues and concerns and so forth.
    And so, my own view was that that was not a political 
thing; that that was a very substantive thing. And I was 
concerned about any appearance of it being political. And 
that----
    Mr. Conyers. That is why you told----
    Mr. McNulty. That is my best memory as to why I would have 
been concerned at that point and made that judgment.
    Ms. Sanchez. The time of the gentleman has expired.
    At this time, I would like to recognize the gentleman from 
Florida, Mr. Keller, for 5 minutes of questioning.
    Mr. Keller. Thank you, Madam Chairwoman.
    Thank you for being here today, Mr. McNulty. Sorry it is 
under these circumstances. This is a tough town, as you know. 
Harry Truman once said, if you want a friend in Washington, get 
a dog.
    I got a dog. It bit me. [Laughter.]
    So, sympathetic to you.
    You are appearing here today without a subpoena. Is that 
correct?
    Mr. McNulty. That is correct.
    Mr. Keller. You are here voluntarily?
    Mr. McNulty. Yes, sir.
    Mr. Keller. You haven't invoked the fifth amendment?
    Mr. McNulty. No, I have not.
    Mr. Keller. You haven't gone to court and sought immunity?
    Mr. McNulty. No, I haven't.
    Mr. Keller. Not everyone before us has appeared under the 
same circumstances.
    It is hard for a Member of Congress, when we have 5 minutes 
to question Monica Goodling and 5 minutes to question you, to 
make an accurate assessment as to what person is courageously 
telling the truth and what person is full of baloney. It is 
just hard to tell in a 5-minute instance.
    I can tell you, though, that I got a very long phone call 
yesterday from the attorney general of Florida, Mr. Bill 
McCollum, who served in Congress for 20 years as my 
predecessor. And he told me that he worked very closely with 
you for 8 years on the Crime Subcommittee when you were his 
chief counsel, and told me that he can't think of a single 
person in his lifetime that has more integrity, more honesty or 
more ethics than you do.
    And I think that speaks volume, as someone who has known 
you for a little bit longer than 5 minutes.
    I want to begin with some of the areas of agreement that I 
saw between you and Monica Goodling, for example.
    I reviewed your prior testimony in the Senate and I 
reviewed her testimony before us, and both of you have 
testified that you are not aware of any evidence whatsoever 
that any U.S. attorney was fired because of their pursuit of 
public corruption cases against congressmen. Is that still your 
testimony?
    Mr. McNulty. That is correct.
    Mr. Keller. Okay. There has been some confusion about can 
you fire someone for political reasons. Just let me simplify 
this, give you analogy.
    If I was the President and down in Orlando, Florida, my 
home town, I had the world's best U.S. attorney, he was ranked 
number one out of 93, 100 percent conviction rate, the staff 
loved him, and one day, in a very big, important mass murder 
case he says, ``You know, I am not going to seek the death 
penalty; just politically I don't believe in it, and I think 
life imprisonment is enough,'' and I am the President, says, 
``I think you are going to seek it, and if you don't enforce 
the law on the books you are fired,'' is that within my 
constitutional right to fire him just because I have a 
political difference of opinion on that issue?
    Mr. McNulty. Well, I believe that a President has, again, a 
right to remove U.S. attorneys for any reason that is not an 
improper reason. And enforcement of the law is certainly in the 
area of proper reason.
    Mr. Keller. In your testimony before the Senate in 2007, 
February, you did not intentionally mislead anyone. Is that 
correct?
    Mr. McNulty. That is correct.
    Mr. Keller. Now, as you sit here today there are certain 
aspects of your prior testimony that you feel are incomplete. 
Is that correct?
    Mr. McNulty. The testimony that I gave in February was 
shown to be incomplete as additional information came forward, 
yes.
    Mr. Keller. Tell us what things, as you sit here today, 
that based on the information that you have now you feel were 
somewhat incomplete and that you would like to specifically 
clarify.
    Mr. McNulty. Well, when I say ``incomplete,'' what I mean 
by that is that there were a number of questions that were 
being asked, either at the hearing or at the briefing I did, 
which were connected to the information that came to light 
after we produced documents and looked at various e-mails in 
the department.
    So what I am referring to----
    Mr. Keller. I don't want to cut you off----
    Mr. McNulty [continuing]. Is the fuller story.
    Mr. Keller. We have got a minute left.
    Is there any specific subject area or two that you want to 
clarify as saying, ``Hey, I said this back then, but now that I 
have reviewed that information, what I would tell you now is X, 
Y and Z''?
    Mr. McNulty. I am sorry, not one is popping to mind that I 
would say, this is a specific issue that was revealed in a 
particular document or e-mail, that was right on point as to a 
question I received. It is just, nothing is popping to mind.
    Mr. Keller. Final question: As someone who has been a U.S. 
attorney, tell us the percentage of cases that the U.S. 
attorney himself or herself would actually personally handle, 
in terms of them personally doing the opening statement, 
examination of witnesses, closing statement. What would you 
estimate the percentage of cases those are?
    Mr. McNulty. We break offices down into four sizes: extra-
large, large, medium and small.
    Extra-large offices are offices that have more than a 
hundred assistants. In those offices, U.S. attorneys handle 
very, very few cases; just too much work to do, management-wise 
to be able to get involved. It is pretty much the case in large 
offices, too.
    Sometimes U.S. attorneys who have a long assistant United 
States attorney/prosecutor background like to stay involved if 
they can. Others just simply don't see that as being a wise use 
of time.
    But if you get to a real small office, it is sometimes 
different. It depends upon, again, the background of the United 
States attorney as to whether or not they can prosecute.
    So I would say that, again, generalizing, it is going to be 
a very small percentage of actually case or trial work done by 
U.S. attorneys. They really have a lot to do in terms of 
managing the office, outreach to the community, taking care of 
a wide variety of responsibilities as U.S. attorney.
    Ms. Sanchez. The time of the gentleman has expired.
    The gentleman from Georgia, Mr. Johnson, is recognized.
    Mr. Johnson. Thank you, Madam Chair.
    Mr. McNulty, I would like to ask you some questions about 
the March 1, 2006, Attorney General's delegation order, 
entitled ``Delegation of Certain Personnel Authorities to the 
Chief of Staff to the Attorney General and the White House 
Liaison of the Department of Justice.''
    The order delegated to Kyle Sampson and Monica Goodling the 
authority to take final action in matters pertaining to the 
appointment, employment, pay, separation and general 
administration of various employees, including, by the way, 
employees in the Offices of the Deputy Attorney General.
    Are you familiar with that order?
    Mr. McNulty. I am now, yes.
    Mr. Johnson. And when did you first become aware of that 
order, sir?
    Mr. McNulty. The best I can recall is I became familiar 
when there was a story on the subject in the National Journal, 
I believe.
    Mr. Johnson. What date would that have been, approximately?
    Mr. McNulty. Within the past month or so.
    Mr. Johnson. So you were unaware of that----
    Mr. McNulty. Well, that is my best memory. I just can't 
remember any time seeing it or having some connection to it.
    Mr. Johnson. Had you seen the order before?
    Mr. McNulty. Before that story?
    Mr. Johnson. Yes.
    Mr. McNulty. Again, I don't have any recollection of that.
    Mr. Johnson. Did you understand that Kyle Sampson and 
Monica Goodling ever had authority to make hiring and firing 
decisions in your office?
    Mr. McNulty. Well, that is what I have come to understand, 
and----
    Mr. Johnson. And you only came to that understanding after 
reading that article?
    Mr. McNulty. No, no. As a practical matter, I knew that, 
with regard to how the office operated, but as an order----
    Mr. Johnson. But it wasn't the way that the office operated 
when you were first sworn in as Deputy Attorney General, isn't 
that correct? That is not how the office was conducted then, 
hiring and firing decisions out of your office, correct?
    Mr. McNulty. Well, it is a difficult subject----
    Mr. Johnson. Is that correct, or is that incorrect?
    Mr. McNulty. It is hard for me to say yes or no to because 
I would have to recall just exactly what was occurring at the 
time----
    Mr. Johnson. Well, let me ask you this question. Let me put 
it like this: When it came down to hiring your chief of staff, 
you did that yourself when you were first employed as Deputy 
Attorney General, correct?
    Mr. McNulty. Not necessarily.
    Mr. Johnson. Well, there was no White House liaison to the 
Justice Department involved in your decision to hire your chief 
of staff, Mr. Elston, was there?
    Mr. McNulty. I am sorry to make this difficult. It is just 
that, if a person----
    Mr. Johnson. Is that true or is that false?
    Mr. McNulty. I can't say it is true or false. It doesn't 
fit that way. If a person is being hired into a political 
position, then there is a process----
    Mr. Johnson. Okay, well, let me stop you. I don't want to 
run out of time.
    What is your understanding of the purpose of that 
delegation order that you just learned about, you say, about a 
month or so ago in a magazine article? What was the purpose of 
that order?
    Mr. McNulty. My understanding of that order is to delegate 
to the Attorney General's chief of staff and to the White House 
liaison the responsibility for making hiring decisions in the 
leadership offices at the department.
    Mr. Johnson. You never had an opportunity to understand why 
that order was entered?
    Mr. McNulty. I don't have any memory of knowing about that 
order being developed or being executed. It just doesn't come 
to my mind.
    Mr. Johnson. Does it surprise you? Did it surprise you, 
back in March when you first learned about it, that your 
authority to hire and fire within your own office had been 
taken away from you and given to a couple of inexperienced 
political appointees?
    Mr. McNulty. What struck me was the guidance on the control 
sheet, if you will, that said, ``This is to not be circulated 
through the Office of the Deputy Attorney General.'' And I 
still don't know, to this day, why that was the case. I think--
--
    Mr. Johnson. Were you disturbed because you were cut out of 
the loop, as the Chairman indicated?
    Mr. McNulty. Well, that definitely was a concern to me when 
I saw that.
    And I have heard Ms. Goodling's explanation of it. I didn't 
quite understand it. And I am still not clear as to her 
position on that subject.
    But as to what I understood it to be, it looked like it was 
something that wasn't going through the deputy's office for 
recommendation to the Attorney General, as most of our 
documents do. I can't say much more about it than that.
    Mr. Johnson. Did you have any discussions with Mike Elston 
about him calling the U.S. attorneys, urging them to remain 
silent about the circumstances of their firing?
    Mr. McNulty. Well, I am familiar with that issue.
    There are two things we are talking about here. There were 
some January phone calls, three calls.
    Mr. Johnson. Did he discuss the calls before he made them?
    Mr. McNulty. The January phone calls I was aware of. The 
March phone call I was not aware of.
    Mr. Johnson. March phone call----
    Mr. McNulty. To Mr. Cummins, which was the subject of some 
discussion at the Senate hearing and perhaps this hearing as 
well.
    Mr. Johnson. What was the purpose?
    Ms. Sanchez. The time of the gentleman has----
    Mr. Cannon. Madam Chair, this is an important issue, and I 
would ask unanimous consent that the gentleman be given an 
extra minute so that we get this clear on the record.
    Ms. Sanchez. Without objection, so ordered.
    You may continue, Mr. Johnson.
    Mr. Johnson. Thank you, sir.
    What would the purpose of the phone calls prior to the 
testimony of the fired U.S. attorneys before this body--what 
were the purpose of the phone calls?
    Mr. McNulty. The phone call that was made in March was the 
one that occurred prior to testimony of the U.S. attorneys. And 
that was a phone call that Mr. Elston had made to Mr. Cummins. 
And Mr. Elston wrote a letter to the Senate Judiciary Committee 
after the testimony of Mr. Cummins about that. He did the best 
he could to explain his reasoning.
    Senator Specter asked a lot of questions to Mr. Cummins. 
You have Mr. Cummins doing an inference of what he thought Mr. 
Elston meant, and then you have three other U.S. attorneys and 
their friends.
    Mr. Johnson. What was the purpose of the phone call?
    Mr. McNulty. Mr. Elston would say that the purpose was to 
encourage Mr. Cummins to understand that there was no effort to 
try to release information about individuals; that, in fact, 
Mr. Elston explains that he was simply trying to assure Mr. 
Cummins that there was no personal information or information 
about specific individuals that was being released by the 
department. He had read a newspaper article----
    Mr. Johnson. And the earlier phone calls----
    Mr. McNulty. Now, the January phone calls, those occurred 
prior to the Attorney General's testimony before the Senate 
Judiciary Committee, long before there was any notion that any 
U.S. attorney would be testifying on Capitol Hill.
    At that time, Mr. Elston, at my encouragement, called two--
I think only left a message or didn't get through to a third--
but called two U.S. attorneys to assure them that the Attorney 
General's testimony the next day was not going to get into any 
information about particular individuals. Some of the folks' 
names had never even come out in the public yet, and there was 
growing press interest or there were articles starting to show 
up and there was a concern that their confidentiality might 
be--that there may be information about them.
    And he was trying to assure them that that was not going to 
occur in the Attorney General's testimony; he was not going to 
speak about any particular people. We were trying to, again, 
stick with the original thinking of keeping the matter quiet 
for purposes of the privacy and the confidentiality of the 
individuals involved.
    Ms. Sanchez. The time of the gentleman has once again 
expired.
    Mr. Johnson. Thank you, Madam Chair.
    Ms. Sanchez. Thank you.
    At this time, I would like to recognize the gentleman from 
Florida, Mr. Feeney, for 5 minutes.
    Mr. Feeney. Thank you, Madam Chairman.
    Mr. McNulty, it has been reported that in early March, when 
you and Senator Schumer had a conversation, you suggested to 
the senator your disappointment that you hadn't been able to 
provide more information, that things were currently coming to 
light.
    In your staff interview you suggested that you and Mr. 
Schumer might have different memories of that conversation. 
Could you please elaborate for us?
    Mr. McNulty. Well, what I meant by that was in any kind of 
conversation that occurs, especially a brief conversation, then 
its description later can sometimes differ in general ways.
    And so my point was that Senator Schumer had said on 
different occasions that I told him that I didn't have the 
information or I had been misled, and that my memory of that 
conversation was a bit different.
    But, again, we were moving quickly, and I was trying to 
communicate to him that I regretted the fact that we didn't 
have all the information available when we originally provided 
it to the Senate Judiciary Committee.
    I didn't mention any specific individual and refer to a 
person as having misled me.
    But the point is that Senator Schumer's memory of that 
conversation came to be something that Ms. Goodling in 
particular characterized as my blaming her or accusing her of 
having not provided me with information. And that is just 
simply not true. I didn't do that, and I have never accused 
anybody of not providing me with information.
    Mr. Feeney. And you have made that clear today, that you 
are not alleging, nor have you intended to allege, that Ms. 
Goodling in any way misled you or deliberately misinformed you 
in preparation for any of your testimony or of your interviews.
    Mr. McNulty. That is right, Congressman.
    What I tried to say today in my statement and in some of 
these remarks is that in this process, we were moving quickly, 
we were trying to respond to questions, we were focused on 
particular things. And I am not in a position to conclude or 
believe that individuals had some intention to keep information 
from me. There is just not information enough to suggest that. 
And, therefore, I am not going to reach that conclusion.
    Mr. Feeney. Well, I suppose the purpose of bringing you 
back today is that there are some alleged contradictions in 
what we heard from Ms. Goodling and what we have heard from 
you. But I see an awful lot of similarities on the key points 
between your testimony and hers.
    Have you had a chance to review her testimony here to the 
House Committee?
    Mr. McNulty. Yes, I have.
    Mr. Feeney. And given the fact that there were a dozen or 
so people over an extensive period of time involved in numerous 
decisions, both about the firings and the review of attorneys, 
and then how to respond to senators and press and House Members 
and other inquiries, you know, given your investigative 
background, both here on the Committee and with the Attorney 
General's office, do you find it unusual that people could have 
somewhat different perspectives and recollections about the 
details of who knew what or who perceived what of things that 
occurred several years ago?
    Mr. McNulty. Well, no, I don't find it at all surprising 
that folks have different memories of things. I know that in my 
job as Deputy Attorney General, I touch dozens and dozens of 
issues every day, and I have a very complex and wide variety of 
things coming into the deputy's office.
    And so this process, this kind of review, is very 
challenging because it requires you go back and remember 
specific things, and you work hard at it. But the fact that you 
all are finding, perhaps, some differences in recollections 
about things should not be surprising at all.
    Mr. Feeney. Well, and finally, with respect to Ms. 
Goodling's testimony, which a lot of us found to be very 
credible and forthright, do you find any inherent or critical 
contradictions between what you have told this Committee, 
either in interviews or in testimony, and what she has told us? 
Do you find, on any of the key points, any critical or 
inherent, unreconcilable contradictions in her testimony versus 
yours?
    Mr. McNulty. The only issue in her testimony that I am here 
to discuss in a way which is designed to clarify it is what I 
see the four areas where she said that I was not fully candid 
with the Senate.
    And I have discussed with the Chair the first of the four, 
and then I am looking forward to the other three coming up so I 
can talk about the two Tim Griffin issues and the Parsky 
Commission matter and set the record straight that I spoke 
truthfully in all four areas.
    Ms. Sanchez. Time of the gentleman has expired.
    Mr. Feeney. Madam Chair, may I ask unanimous consert to 
include in the record the letter that has been referred to, I 
think, in the prior questioning from Mr. Elston? I think it was 
the March letter which he sent to the Senate to explain the 
phone calls that he made.
    Ms. Sanchez. Without objection, so ordered.
    The gentleman from Massachusetts, Mr. Delahunt, is 
recognized for 5 minutes of questioning.
    Mr. Delahunt. Mr. McNulty, let me state for the record that 
I have always found you an individual of integrity and 
professionalism.
    Mr. McNulty. Thank you, sir.
    Mr. Delahunt. And I wish you well in the private sector.
    Mr. McNulty. Thank you, sir.
    Mr. Delahunt. Having said that----
    Mr. McNulty. Yes. [Laughter.]
    Mr. Delahunt [continuing]. Let me see if I can bring some 
clarity to this. You would be unaware of any political or 
improper political considerations in terms of the development 
of this list. I think your response to Mr. Keller was that you 
were totally unaware of any that might have occurred.
    Mr. McNulty. The development of the list of U.S. attorneys.
    Mr. Delahunt. Right.
    Mr. McNulty. My involvement with that begin----
    Mr. Delahunt. My point is that you were not really part of 
that process.
    Mr. McNulty. That is correct.
    Mr. Delahunt. You were the caboose, am I correct?
    Mr. McNulty. I became involved at the end of the----
    Mr. Delahunt. At the end. I mean, you were left out of that 
process. I mean, am I making a fair statement?
    Mr. McNulty. You are making a fair statement, yes. I am not 
saying it was intentional or not, I just know I was not 
involved.
    Mr. Delahunt. I don't know myself, but I am just saying.
    And the gentleman from Georgia indicated that in terms of 
the delegation order, you were unaware until about a month ago, 
or maybe 6 weeks ago, of the existence of that order.
    Mr. McNulty. I don't have any recollection of that matter 
coming to my attention before that.
    Mr. Delahunt. That is what I mean. And you referenced the 
fact that you read that somewhere, that it was an admonishment 
not to involve the Office of the Deputy Attorney General in the 
process itself.
    Mr. McNulty. Well, it was routed around our office, yes.
    Mr. Delahunt. But it was clear to route around the Office 
of the Deputy Attorney General.
    Mr. McNulty. That is what the paper indicated.
    Mr. Delahunt. You know, I am drawing an inference that you 
were zoned out of this process. I don't know for what reason, 
but maybe that is an issue to be pursued by the Committee.
    You know, the day after you resigned, the Attorney General 
had a press conference and he made several observations: ``The 
one person that I would care about would be the views of the 
Deputy Attorney General, because the Deputy Attorney General is 
the direct supervisor of the U.S. attorneys.'' And yet you 
weren't part of the process.
    Mr. McNulty. Well, at another time, the Attorney General 
said, I think in his Senate testimony, that one of the regrets 
he had was not directly involving the Deputy Attorney General 
in the process.
    And to be fair, I mean, Mr. Sampson might say that he 
talked to me about U.S. attorneys over the course of my time, 
that year I served as deputy, and we talked about----
    Mr. Delahunt. But you were not involved in the compilation.
    Mr. McNulty. I wasn't aware of the specific process of 
identifying U.S. attorneys----
    Mr. Delahunt. I mean, did Attorney General Gonzales call 
you in and say, ``Paul, we have got a list of eight United 
States attorneys. What is your opinion?'' And I would think 
this is a matter of significant consequence to the 
administration of justice, as far as the department itself was 
concerned. Did you talk to him about this?
    Mr. McNulty. Not before the phone calls were made on 
December 7. That is not how that process worked. It was more 
indirect.
    Mr. Delahunt. Well, I guess what I am saying is, I just 
find that remarkable.
    Mr. McNulty. Let me make sure this is very clear. I was in 
a meeting with the Attorney General on November 27, so I did 
have that interaction.
    Mr. Delahunt. What was that meeting about? Was it about the 
list?
    Mr. McNulty. It was about the plan of going----
    Mr. Delahunt. Was that your first communication----
    Mr. McNulty. That was my first direct----
    Mr. Delahunt. How long did that conversation----
    Mr. McNulty. My best memory is, it was--well, it wasn't a 
conversation between us, it was a meeting involving several 
people. I don't remember the Attorney General saying much at 
the meeting. I don't recall even much that I said. So it was 
not like a meeting with him personally.
    And the meeting lasted approximately half an hour.
    Mr. Delahunt. Okay.
    First time, November 27, for a half hour, on a key decision 
in terms of the functioning of the Department of Justice.
    He went on to say--this is the Attorney General--he signed 
off on the names and he would know better than anyone else, 
anyone in this room, any, anyone. Again, the Deputy Attorney 
General would know best about the qualifications and 
experiences of the United States attorney committee, and he 
signed off on the names.
    I dare say, understanding the realities of what occurs here 
in Washington, you were the caboose, you were given the list, 
and maybe it was never articulated, but the suggestion was, 
``Sign off, we are moving.''
    Mr. McNulty. Well, to be fair, I was given an opportunity 
to voice any objections I had, and I voiced some objections. 
And----
    Mr. Delahunt. Were your objections respected?
    Mr. McNulty. Yes. At least one name was taken off a list on 
my objection. I raised some questions about another and did not 
at the end of the day voice that objection so that it wasn't 
removed.
    And to be fair to the Attorney General, I think he would 
say he was relying on Kyle Sampson to get my input, and that is 
why we didn't have direct communication.
    Ms. Sanchez. The time of the gentleman has expired. Would 
the gentleman like an additional minute?
    Mr. Delahunt. Well, you know, of course I will take the 
additional minute. Why not?
    Ms. Sanchez. Is there any objection?
    Without objection.
    Mr. Delahunt. Let me just say this, Mr. McNulty, and I say 
this respectfully to you: I think you were poorly treated. I 
don't think that the process was done in a way that reflected 
well, in terms of the professionalism that I know exists in the 
Department of Justice. It is my belief that you were thrown 
under the bus.
    And with that, I will yield back.
    Ms. Sanchez. Thank you, Mr. Delahunt.
    The gentleman from Tennessee, Mr. Cohen, is recognized for 
5 minutes.
    Mr. Cohen. Thank you, Madam Chair.
    I incorporate, by reference, all the nice things that have 
been said about you, to save time. [Laughter.]
    Mr. McNulty. You can feel free to go ahead and take that 
time, if you would like. [Laughter.]
    Mr. Cohen. Let me follow up on the previous question. Who 
did you take off the list?
    Mr. McNulty. Well, we have not made that name public. I----
    Mr. Cohen. That is why I am asking the question.
    Mr. McNulty. I know, but I am---- [Laughter.]
    I am trying to respect that process. I hope you don't feel 
as though I am resisting you. Your staff knows the name. And I 
really would like to be able to keep it that way.
    Mr. Cohen. Well, we will discuss with the Chairman about 
that.
    And by the way, I think it is very bipartisan. I didn't 
know about that Web site, either, so it is a bipartisan thing 
in not knowing about it. But that is neither here nor there.
    What was your relationship with Ms. Goodling?
    Mr. McNulty. You mean, in terms of----
    Mr. Cohen. Cordial?
    Mr. McNulty. Oh, yes, I had a very good relationship with 
her.
    Mr. Cohen. Why would she suggest in her testimony that you 
had basically given false information? You don't think it was 
because she had anything in for you, was it? She was just, kind 
of, testifying on things of which she had no knowledge?
    Mr. McNulty. Congressman, I do not know why--and I have 
given it a lot of thought, but I would be totally speculating 
as to why she felt it was necessary to say that.
    Mr. Cohen. She said she crossed the line in using politics 
to hire and fire folk. Are you aware of any suggestions 
whatsoever, personal or just through the department, that you 
crossed the line in hiring in other areas other than politics?
    Mr. McNulty. I am not so sure I get that question.
    Mr. Cohen. Favoritism to people based on any particular 
ideological bent.
    Mr. McNulty. Well, I am not entirely clear on whether or 
not she specified a category in particular where she crossed 
the line, using her own words. So I am not sure I have----
    Mr. Cohen. She, kind of, said she did it if you were a 
Democrat, you were out.
    Mr. McNulty. I see.
    Mr. Cohen. But were you out if you were a moderate.
    Mr. McNulty. I don't know. That would not be information I 
would have access to.
    Mr. Cohen. If you went to a tier-two law school.
    Mr. McNulty. I don't know.
    Mr. Cohen. The honors program and the intern program, there 
are some letters here from April, and you are aware of some of 
those, I know. Were politics involved in determining who got 
those appointments to the honors program at the Department of 
Justice and the summer internship program?
    Mr. McNulty. I don't know the answer to that question. I am 
happy to try to provide you with more information in terms of 
context, but I don't know the specific answer to that question.
    Mr. Cohen. Should politics have been involved?
    Mr. McNulty. Politics should not be involved in the hiring 
of any career person at the Department of Justice.
    Mr. Cohen. And you are familiar with this letter of April 
9, and a subsequent meeting, in a meeting where some top 
Justice Department people pointed out some people that were 
summa cum laude from Harvard and/or Yale that were not even 
asked for interviews.
    Mr. McNulty. I am aware of that letter, and I am aware of 
that allegation. I know that is being reviewed. I don't know if 
that allegation is correct or not.
    I think the honors program has worked extremely well over 
the years. It has attracted outstanding candidates to the 
Department of Justice. And I don't know if it was subject to 
any political consideration.
    When I was aware that the honors program needed to be 
reviewed--and, again, in fairness to those who were involved in 
that, they were working on looking at changes and improvements 
before it was brought to my attention.
    We have now made sure that it is controlled by career 
people throughout the process.
    Mr. Cohen. You have been in the Justice Department, both in 
the previous Bush presidency and this one. How would you 
describe the difference in the morale of the Department of 
Justice today and how it was when you started your job and how 
it was under Bush the First?
    Mr. McNulty. Well, that is, of course, a tough question to 
be precise about, the department is so big. And to this day 
there are just a lot of people who have very good morale at the 
Department of Justice, because they love what they do and they 
have a clear mission.
    And so, I have had contact with folks in a wide variety of 
positions over the past several months who still have very good 
morale. So it is hard to be specific about that.
    Mr. Cohen. It is rather subjective.
    Mr. McNulty. It is.
    Mr. Cohen. But let me ask you this: If General Gonzales 
would choose to resign, would that hurt the morale at the 
Department of Justice?
    Mr. McNulty. I don't know how to gauge that.
    I think the morale at the department is generally good. I 
think people, again, love what they are doing and are 
fulfilling their responsibilities in a very excellent way.
    Mr. Cohen. Thank you, sir.
    I yield the balance of my time.
    Ms. Sanchez. Thank you.
    The gentleman from North Carolina, Mr. Watt, is recognized 
for 5 minutes.
    Mr. Watt. Thank you, Madam Chair.
    And thank you, Mr. McNulty, for being here.
    Ms. Goodling testified before this Committee that Senator 
Domenici had raised concerns about U.S. attorney David Iglesias 
and indicated that she briefed you on that fact prior to your 
Senate testimony. You were aware of it.
    In fact, in her handwritten notes, there is a quote that 
says, ``Domenici says he doesn't move cases.''
    Ms. Goodling further testified that you told her not to 
reference these concerns expressed by Senator Domenici in the 
materials to be used in briefing Congress. Is that correct or 
is it incorrect?
    Mr. McNulty. She explained--and to the best of my memory, 
I----
    Mr. Watt. My question is, did you instruct her not to 
include references to Senator Domenici's statement in her 
briefing materials in which she was preparing you for your 
testimony?
    Mr. McNulty. I don't remember it that way.
    What I remember is we were trying to identify the issues, 
concerns associated with different U.S. attorneys. And we were 
discussing what those issues would be in relationship to David 
Iglesias.
    And certain characterizations were being listed in that 
chart, which you now have. And that, as far as I can remember, 
is discussing those different characterizations.
    Mr. Watt. So you deny that you----
    Mr. McNulty. Well, I don't want to say ``deny,'' because--
--
    Mr. Watt [continuing]. Instructed her not to include the 
references to Senator Domenici in the briefing materials?
    Mr. McNulty. Her memory on that may very well be correct. 
And what she says is that I said we should let Senator Domenici 
speak for himself, rather than us speaking for him. And I don't 
specifically recall that, but that may be correct.
    Mr. Watt. So did you find Senator Domenici's observations 
about Mr. Iglesias to be an important factor in the fact that 
he was on the list and was terminated?
    Mr. McNulty. Well, when I saw his name on that list and I 
had to make my own judgment as to whether or not I objected to 
it, the phone conversation that I had with Senator Domenici on 
October 4, which was a brief conversation in which he expressed 
his own dissatisfaction, that certainly was a factor in my mind 
when I saw the name on the list. And just as the Attorney 
General said, it affected his judgment.
    Mr. Watt. So if you had instructed that that communication 
not be part of the briefing materials and failed to fully 
disclose that to the Senate, would it be accurate then for you 
to say that you were fully informing the Senate about factors 
that were important in making the determination of whether to 
put somebody on the list, leave them on the list, or remove 
them from the list?
    Mr. McNulty. I think it wasn't inconsistent with that, and 
we were being as forthcoming as we could. Because we were 
identifying the things that we understood to serve as these 
justifications, but we didn't always reference the source of 
that information.
    We had congressional complaints involving Carol Lam in San 
Diego. We probably identified Carol Lam as somebody who was not 
moving or not acting consistent with the priorities of the 
department.
    So, in my mind, I was distinguishing between what the 
factors were that had been identified from perhaps the source 
of that and trying to respect the process of letting members, 
you know, convey their own views.
    And that is about as best as I can remember as to why we 
would try to distinguish there.
    Ms. Sanchez. The time of the gentleman has expired.
    Mr. Watt. May I ask unanimous consent for 2 additional 
minutes?
    Ms. Sanchez. Without objection, so ordered.
    Mr. Watt. And the reason I ask for this additional time, I 
wanted to explore this particular thing.
    But more generally, the whole purpose of this series of 
hearings has been about getting to the bottom of why various 
people were put on a list and removed. And we don't seem to 
have much more information about that today than we had when we 
started.
    What is your understanding, now, Mr. McNulty, based on 
everything you know about who put the list together and why 
various people were put on that list?
    Mr. McNulty. Well, as I sit here today, my best 
understanding is that Mr. Sampson put the list together, and 
that he put the list together based upon information that he 
gathered over an extended period of time, that he made changes 
to it from time to time based upon various inputs he received, 
conversations he had, and that he came to a point, finally, in 
October of 2006, with an essentially close to final list, and 
then----
    Mr. Watt. And what was his position?
    Mr. McNulty. He was the chief of staff to the Attorney 
General. He started that process, though, as the deputy chief 
of staff. And then, because we now know based upon the 
information that he----
    Mr. Watt. And you think all of this was happening without 
the Attorney General's knowledge?
    Mr. McNulty. Well, I think the Attorney General has been 
pretty clear in his testimony that he directed--and I won't 
want to pick the wrong word, but my best memory is he said he 
directed Mr. Sampson to begin a process sometime in 2005 that 
involved discussing with different people their views on the 
work of the U.S. attorneys.
    And, again, I am just, best I can, paraphrasing what I 
thought the Attorney General's testimony was on that.
    And so, over that period of time, as first the deputy chief 
of staff and then the chief of staff, Mr. Sampson gathered that 
information and compiled lists and interacted with the White 
House from time to time on that.
    Ms. Sanchez. The time of the gentleman has, once again, 
expired.
    Mr. Watt. Thank you, Madam Chair.
    Ms. Sanchez. We will now go to a second round of questions 
and----
    Mr. Cannon. Madam Chair, could we poll the panel to see who 
wants to do a second round, just so we can, sort of, plan our 
time?
    Ms. Sanchez. Certainly.
    Interested in a second round of questions, raise your hand.
    I think there is significant interest in a second round of 
questioning so I will----
    Mr. Cannon. It is my fervent hope that the second round is 
more productive or interesting than the first round has been.
    Ms. Sanchez. Well, that all depends on the questions and 
the witness.
    We will now start the second round of questioning, and I 
will recognize myself for 5 minutes.
    Mr. McNulty, when you briefed the Senate on the U.S. 
attorney issue, did you ask Mr. Goodling to wait outside while 
you did that briefing?
    Mr. McNulty. Yes, I have already explained that I did.
    Ms. Sanchez. Can you refresh my memory briefly, if you 
will, because we have a limited amount of time, as to why, 
again, you asked her not to participate or not to be inside 
during that briefing?
    Mr. McNulty. Well, the best memory I have of that was that 
it was a judgment I made there at the last moment. But I was 
concerned that it would give an appearance of the process being 
more political, given the fact that her job was uniquely 
associated with the political appointment of individuals to the 
department.
    I felt that we were doing something that wasn't political, 
in my mind. What we were doing was talking about the specific 
reasons related to the seven U.S. attorneys that stood behind 
their seeking the resignations.
    Ms. Sanchez. Well, briefly----
    Mr. McNulty. I thought it was not a process that really 
involved the political aspect of----
    Ms. Sanchez. Well, briefly, what would be your response to 
her suggestion that you wanted to discourage questions about 
the White House and its role in the firing? Briefly.
    Mr. McNulty. Well, I mean, again, I can understand that is 
her testimony on that subject, it is just not my memory of why 
that would have been a concern.
    I think that my own sense was, because I was the one going 
to do the talking----
    Ms. Sanchez. Certainly, it clearly was a concern of hers, 
because that was the opinion that she expressed, that she was 
excluded from that briefing because----
    Mr. McNulty. Right. I know she expressed that.
    Ms. Sanchez. Okay. All right.
    Mr. Elston was your chief of staff, correct?
    Mr. McNulty. Yes, he is.
    Ms. Sanchez. Okay.
    When Carol Lam, the former U.S. attorney for San Diego, 
asked to stay on the job longer in order to deal with some 
outstanding prosecutions, the expanding Duke Cunningham case 
being one among them, Elston told her not to think about her 
cases, that she should be gone in ``weeks, not months,'' and 
that ``these instructions were coming from the very highest 
levels of government.''
    As Mr. Elston's boss, who was he referring to? Do you know?
    Mr. McNulty. Well, he was referring to his interactions 
with the Attorney General's Office in particular.
    He was in a bit of a difficult situation there. He was 
trying to implement the decision that had already been made to 
seek the resignation. And one of the challenging aspects of 
that was to settle on a final date of departure. And various 
individuals----
    Ms. Sanchez. I am just interested in knowing who you 
believe the highest levels of Government meant. And would it be 
fair to say the Attorney General, then?
    Mr. McNulty. Well, I am not sure specifically who Mike was 
referring to there.
    Ms. Sanchez. Okay. All right. You have answered my 
question.
    Mr. Elston also called around to the U.S. attorneys whom he 
had placed on one of the draft firing lists to apologize when 
he discovered that his list would be turned over to Congress.
    Did you instruct Mr. Elston to make those calls?
    Mr. McNulty. No, but he told me he was, and I thought that 
was a good thing he was doing.
    Ms. Sanchez. Did Mr. Elston frequently make direct contact 
with U.S. attorneys without your knowledge or direction?
    Mr. McNulty. He had a lot of contact with U.S. attorneys 
because, as the chief of staff to the Deputy Attorney General's 
Office, U.S. attorneys called in frequently and would talk to 
him, and he would talk to them. For example, on death penalty 
cases, which involves a lot of interaction, he would talk to 
U.S. attorneys frequently.
    Ms. Sanchez. And you know that he allegedly called three of 
the fired U.S. attorneys and made an implicit threat that the 
Justice Department would detail the reasons for their firings 
if they ``didn't stay quiet''?
    Mr. McNulty. Well, I would strongly disagree with that 
characterization of those calls.
    Ms. Sanchez. That is how it was characterized by the 
witnesses who received those communications.
    Mr. McNulty. Well----
    Ms. Sanchez. And you disagree with that----
    Mr. McNulty. I disagree with their characterization.
    Ms. Sanchez. Okay. We will agree to disagree.
    On May 9, The Washington Post revealed that there was a 
ninth fired U.S. attorney, Todd Graves of Kansas City, who was 
terminated in January 2006, after his name appeared on one of 
Mr. Sampson's firing lists earlier that month.
    The Department of Justice still has not produced documents 
to us about that firing, despite our requests over a month ago.
    As Deputy Attorney General in charge of our U.S. attorneys, 
tell us what information or belief you have about the firing of 
Mr. Graves.
    Mr. McNulty. I have very limited knowledge about that. I 
was not----
    Ms. Sanchez. You were not kept in the loop on that and you 
were not consulted.
    Mr. McNulty. Well, remember, I started as Acting Seputy 
Attorney General on November 1. I wasn't confirmed until March. 
And the phone call that he received was made in January. So 
that was before I was confirmed.
    Now, having said that, I may have had some vague awareness 
that he was departing. But I was not consulted in any decision 
to seek--look, I think also you need to be careful. Mr. 
Graves's own words at his hearing a few weeks ago on the Senate 
side I think are somewhat in contrast to the language that is 
used with regard to him.
    He did not refer to himself as--he referred to himself as 
being pushed out, but he also talked about the fact that he was 
intending to leave and that he had no bitterness and he felt it 
was appropriate that he could be called and asked to go.
    But, in any respect, I was not involved in that matter. And 
I didn't have any specific understanding of what was going on 
there.
    Ms. Sanchez. Okay. You had no knowledge. I am assuming, 
though, that being pushed out is not the same as voluntarily 
leaving.
    With that, I will recognize Mr. Cannon for 5 minutes.
    Mr. Cannon. Thank you.
    May I just make an inquiry?
    First of all, I think that Mr. Keller would be better 
recognized, because he may need to leave, and I don't.
    But as to the inquiry, I think we have a vote in 10 
minutes. Is it possible that we could wrap this hearing before 
the vote?
    Ms. Sanchez. We will certainly try as hard as possible to 
wrap it before the vote, but I give no assurances.
    Mr. Keller?
    Mr. Cannon. I suggest that I could talk Mr. Keller out of 
taking his 5 minutes if you want to poll your side to see if we 
could get this done.
    Ms. Sanchez. Why don't we recognize Mr. Keller for 5 
minutes? He may begin his questioning. And we will discuss that 
in the meantime.
    Mr. Keller. Well, thank you very much, Madam Chairwoman.
    And I am trying to figure all this out, because when I read 
Monica Goodling's testimony, some aspects of it, there just 
seems to be, kind of, some anger.
    You know, for example, on some of the things that she is 
mad about you at, like, for example, she says you were asked 
about the Parsky Commission, some obscure commission in 
California, and you said it was okay. And you had heard from 
some people who didn't like it. So, clearly, a false statement. 
It just seemed so much, you know, to quarrel on such a little 
thing.
    And I am trying to figure that out. I have a guess. And 
since I am under privilege, I guess I am allowed to guess, so, 
without being, you know, prosecuted.
    But I know that Monica Goodling and Tim Griffin were 
friends and opposition researchers at the RNC. And I know that 
you went before the Senate and testified, truthfully, that the 
dismissals were performance-based, except for one, except for 
Bud Cummins, who was removed to make way for Tim Griffin. And 
some people felt like that ended Tim Griffin's chance of 
permanently getting that job as a Karl Rove protege.
    And I am wondering if she is just, kind of, mad at you and 
throwing up somewhat trivial stuff like, ``What about the 
Parsky Commission? You knew that some people didn't like it.''
    But at any rate, I am just trying to sort it through. Tell 
us your side of the Parsky Commission debate.
    Mr. McNulty. Well, thank you for letting me respond to 
that, because I do want, before the hearing is over, to get to 
all of them.
    On that one, I stated at my hearing that I thought the 
Parsky Commission worked very well and that the department 
respected the process.
    Now, first of all, that is a matter of opinion whether you 
think it is working well or not, and it may be that some at the 
department leadership felt it wasn't.
    But at the time of my hearing, the Administration was 
relying on the Parsky Commission to select our U.S. attorney 
candidates in three out of the four California districts. So we 
were very much engaged in the use of the Parsky Commission.
    And from my perspective as deputy, who wasn't involved in 
the selection of U.S. attorneys in particular, I assumed that 
we were satisfied with it, that we had accepted it and that it 
was working for us.
    And so, that is why I described it that way at my hearing.
    Mr. Keller. All right, so, of the four things, we have 
covered her claim that you, kind of, under-represented your 
knowledge of the White House involvement.
    Mr. McNulty. Yes.
    Mr. Keller. We have covered the Parsky Commission issue.
    The third issue is the allegation she made that you, sort 
of, under-represented the degree of knowledge you had regarding 
the circumstances of Bud Cummins's departure.
    Would you like to----
    Mr. McNulty. Well, we have two other ones. And those are 
the two Tim Griffin ones.
    Mr. Keller. All right. Just go ahead and tell me your side 
on that.
    Mr. McNulty. All right.
    So the first is that Senator Schumer asked me at the 
hearing whether I knew who recommended Tim Griffin to us for 
that appointment as the interim in the Eastern District of 
Arkansas.
    Now, this is after I have already stated at this hearing 
that Mr. Cummins was asked to leave so that Mr. Griffin could 
be given a chance. But what I didn't know until later was how, 
specifically, Mr. Griffin came to our attention.
    I had known for months that Mr. Cummins was asked to move 
over so that Mr. Griffin would have a chance, as Ms. Goodling 
indicated, that she had told me that quite some time ago.
    But I did not know--and I think, in her testimony--and I am 
going to be a little careful here, but I think in her testimony 
she said she wasn't even particularly aware of how he came to 
our attention.
    So that was the issue there; I answered that question 
truthfully; I just didn't know the specifics of how he came to 
be recommended to us.
    We have later learned that Ms. Miers contacted Kyle 
Sampson, and that is the way.
    And the second one has to do with the caging issue. And 
there, it is a rather simple issue of where she is challenging 
my testimony.
    Senator Schumer asked me about an allegation involving Tim 
Griffin in a practice known as caging. And I said that I was 
aware of an article on that subject, but I didn't--and here is 
my quote: ``I didn't know anything about it personally.'' And 
that is perfectly true. I didn't know anything about it 
personally.
    The night before my hearing, I was given an article and a 
short explanation. And I did not have an opportunity to read 
those things. I knew about the existence of the issue. And I 
therefore did not want to testify about a matter that I didn't 
know about personally. And I just said that at the time.
    Mr. Keller. You got it all out, on those four issues? That 
is your side?
    Mr. McNulty. Yes, thank you.
    Mr. Keller. Okay. I will yield back, Madam Chairwoman.
    Ms. Sanchez. Thank you. I thank the gentleman.
    At this time, I would like to recognize Mr. Conyers for 5 
minutes of questioning. Mr. Conyers?
    Mr. Conyers. Thank you, Madam Chair.
    Now, did you just say you didn't know anything about 
caging?
    Mr. McNulty. What I said was that when I was asked that 
question at the Senate hearing all I knew about the subject at 
that point----
    Mr. Conyers. Was an article that you----
    Mr. McNulty [continuing]. Was that there was an article.
    Mr. Conyers. Was that article by Greg Palast about African-
American soldiers scrubbed by secret GOP hit list?
    Mr. McNulty. Right----
    Mr. Conyers. Dated June 16, 2006. Was that it, as you 
recall?
    Mr. McNulty. That is the article I am referring to.
    Mr. Conyers. And didn't Monica Goodling tell you that 
caging might come up at the hearing as she was briefing you?
    Mr. McNulty. Yes, that is correct.
    Mr. Conyers. And did it come up?
    Mr. McNulty. It did.
    Mr. Conyers. And your response was you never looked at the 
caging, even though Goodling told you, you saw the Greg Palast 
article, and it was put in your briefing testimony for the 
Senate, your briefing book?
    Mr. McNulty. Right.
    Mr. Conyers. And you didn't look at the material in your 
briefing book outside of the article?
    Mr. McNulty. Mr. Chairman, I didn't read the article.
    I was aware the article existed because Senator Pryor 
referred to it in his testimony right before I got up to 
testify and Ms. Goodling had raised the issue the day before. 
But I had not read the article and had not become familiar with 
the issue.
    And even if I had read that article, Mr. Chairman, if I 
just may say so, even if I had read that article and I was 
asked that question again by Senator Schumer, I would still be 
very careful before I started speaking because information 
based upon just one article----
    Mr. Conyers. But there was more in your briefing book.
    Mr. McNulty. There was another Tim Griffin e-mail, which 
gave his explanation of that article, which I have now seen, 
but I hadn't read before I testified.
    Mr. Conyers. So could I infer that caging of Black voters 
may not have been one of the high items on your list as your 
responsibility as Deputy Attorney General?
    Mr. McNulty. Well, I am not sure what you mean by that. I 
mean, the----
    Mr. Conyers. What I mean by it is Goodling told you about 
it, it is in your Senate testimony, and yet you failed to 
answer questions on the subject before the Senate, and you tell 
me even now--as of today, have you looked at it yet?
    Mr. McNulty. I have now read the article and I have read 
that e-mail.
    Mr. Conyers. No, I mean the whole subject matter of caging. 
I mean, this disenfranchises lots of people.
    Well, first of all, you know, caging is challenging lists 
of voters that are usually minority voters, and----
    Mr. Cannon. Would the gentleman yield? Because I think Ms. 
Goodling testified slightly about the----
    Mr. Conyers. Wait a minute. Let me just finish the 
question.
    Ms. Sanchez. The time belongs to the gentleman from 
Michigan. Let him finish his question.
    Mr. Conyers. Yes, I will get back to you, Chris. I always 
yield to you. You know that.
    But we have got a whole chain of testimony. This is one of 
the big issues that came out of at least a couple of major 
elections in this country. And you are saying, ``Yes, I was 
told about it. Yes, it was in my tab in the briefing book for 
Senate testimony. And yes, I looked at Palast's article, but I 
didn't read it.''
    Why does it not generate much concern or attention for you? 
For me, voter rights is one of the big problems that we have in 
terms of having it enforced in the Department of Justice.
    Mr. McNulty. Well, Mr. Chairman, if I may respond, we are 
dealing with two things here.
    First of all, with regard to what I knew at the hearing I 
went to on February 6, I was about to go and testify on the 
question of why certain U.S. attorneys were asked to leave, and 
specifically what happened in the case of Arkansas.
    The subject having to do with an article making an 
allegation against a particular person like that was not 
directly related to what I was doing. I was given an article 
the night before, I didn't have the time and I didn't focus on 
that particular issue, because, again, I was anticipating the 
hearing looking at other subjects.
    Now, secondly, if you are raising with me as Deputy 
Attorney General the question of caging votes, I am very happy 
to work with you on that concern.
    Mr. Conyers. Good.
    Mr. McNulty. I am not prepared today to give you a lengthy 
explanation of where that stands, if there is anything 
happening at the Department of Justice on the matter.
    Mr. Conyers. Well, just your commitment that we will work 
on it together is good enough for me.
    Mr. McNulty. Well, you certainly have that commitment. You 
know, I am obviously not going to be around a long time. But I 
certainly understand the importance of the issue to you, and 
the department takes any issue involving voting rights 
seriously, and we will make sure that is understood.
    Mr. Conyers. Thank you.
    Could I get an additional minute to yield to the Ranking 
minority leader of this Committee, as I always do when he asks?
    Ms. Sanchez. Without objection, so ordered.
    Mr. Cannon. In fact, the Chairman is extraordinarily 
gracious in this regard.
    I just wanted to point out that the caging--we needed that 
clear, and I think Mr. McNulty was fair here--caging is, as I 
understand it, a term of art for mail houses, and it relates to 
what you do with a letter that comes back because it didn't 
have an address that worked----
    Mr. Conyers. I see. And that is all you know about caging.
    Mr. Cannon. That is what I think the term generally means. 
But I am not an expert in the area at all.
    Mr. Conyers. Well, maybe I ought to bring you in and let's 
us work together on this. Because we are talking about the 
caging, the process where lists of voters to be challenged are 
generated that deal with blocking them out of the voting 
process. It is not an issue of the mail at all.
    Mr. Cannon. Thank you. I yield back to the gentleman.
    Ms. Sanchez. Thank you.
    I believe Mr. Cannon is recognized for 5 minutes.
    Mr. Cannon. You know, I am actually willing to defer to one 
of the Democrats, if you want to go ahead, and I will ask 
questions if I feel like we need to later on. Thank you.
    Ms. Sanchez. I appreciate that, Mr. Cannon.
    The gentleman from Georgia, Mr. Johnson, is recognized for 
5 minutes.
    Mr. Johnson. Thank you, Madam Chair.
    Mr. McNulty, you testified at the Senate Judiciary 
Committee that Bud Cummins was forced out to make room for Tim 
Griffin to serve as U.S. attorney, and that it was ``not 
connecting to the performance of Mr. Cummins.''
    Why did you believe that Bud Cummins was forced out just so 
that Mr. Griffin could serve?
    Mr. McNulty. Because that is how the facts were laid out 
for me at the time that that was occurring.
    It was occurring in the summer of 2006. And, as Ms. 
Goodling mentioned, I was regularly briefed about the status of 
U.S. attorneys, in terms of where they are going. And I was 
told at that time that Mr. Cummins was going to be encouraged 
to resign at some point so that Mr. Griffin would have an 
opportunity to serve in that position.
    Mr. Johnson. And it was not a merit-or a performance-based 
reason why Bud Cummins was asked to leave. It was for some 
other reason, correct?
    Mr. McNulty. I was never told that there was a performance 
issue associated with why Mr. Cummins was being asked to step 
aside.
    Mr. Johnson. But you were told that there was a plan to 
install Tim Griffin in that position, correct?
    Mr. McNulty. Well, what I was told specifically was that he 
was going to be going into the office with the hope of 
eventually becoming a U.S. attorney. But that would have been a 
multi-step process, involving his nomination and confirmation. 
Initially, he would be going in and he would have an 
opportunity to serve as the interim U.S. attorney.
    Mr. Johnson. Now, when you revealed the fact that Bud 
Cummins was being replaced for non-performance reasons and that 
the White House was involved in the decision to get rid of him 
and put someone else, i.e., Tim Griffin, in his place, that 
angered some people at the White House, correct?
    Mr. McNulty. Evidently.
    Mr. Johnson. And it angered Sara Taylor.
    Mr. McNulty. I have seen the e-mail recently to that 
effect.
    Mr. Johnson. It angered Mr. Rove.
    Mr. McNulty. I don't know that for a fact.
    Mr. Johnson. It angered the Attorney General.
    Mr. McNulty. Apparently so.
    Mr. Johnson. What gives you that impression?
    Mr. McNulty. Again, an e-mail that came forward which--I 
wasn't aware at the time that he was upset. But he----
    Mr. Johnson. When did you become aware that he was upset?
    Mr. McNulty. When I read the e-mail, that he apparently was 
``very upset'' with my testimony, because he believed that it 
was a performance-related issue associated with Bud Cummins.
    Mr. Johnson. Did it appear that he wanted to maintain a 
stance that all of the fired U.S. attorneys were fired due to 
performance-based reasons, as opposed to political reasons?
    Mr. McNulty. Well, he explained that further at this 
hearing. And I think what he said was that he just 
misunderstood. He thought that there had been some performance 
issue associated with Mr. Cummins and that he stood corrected 
once he learned that that was not the case.
    Mr. Johnson. Didn't the Attorney General know at the time 
that the preparations were ongoing to replace Bud Cummins with 
Tim Griffin, that that process was taking place?
    Mr. McNulty. I assume so. I don't know exactly when he 
became aware that Mr. Griffin was going into the Eastern 
District of Arkansas to take that interim position at some 
point. I am not sure when he first learned that.
    Mr. Johnson. You told Senator Schumer that you did not have 
information as to how Tim Griffin came to be appointed U.S. 
attorney in the Eastern District of Arkansas.
    When Ms. Goodling testified before this Committee, she 
testified that that was false, and she said that she had kept 
you informed of the effort to remove Bud Cummins in order to 
arrange an opportunity for Mr. Griffin since the spring or 
early summer.
    She stated that, ``The subject came up frequently in my 
briefings over the course of the next 6 months.'' And she said 
that she was ``confident that I had informed the deputy of Mr. 
Griffin's background,'' and the White House had approved 
Griffin to go into background investigation in advance of a 
nomination as early as June or July. And she talked about 
subsequent discussions about installing him as the interim U.S. 
attorney.
    What is your response to that?
    Mr. McNulty. Well, all of that, as best I can recall, is 
true. It is just that it doesn't go to the question of where I 
may have not answered, you know, her allegation.
    The point is, she says that I did not answer Senator 
Schumer's question as to how he came to our attention. And I 
didn't know the answer to that question when I was asked at my 
hearing, how did we specifically come to know of Tim Griffin's 
interest.
    What I knew was everything that you just recited: that he 
had come to our attention, that we had sent him to Arkansas, we 
had asked Mr. Cummins to leave. And everyone knew, of course, 
of his background, and Senator Schumer stated his background at 
my hearing before I ever was even asked anything about him.
    So the only issue here between Ms. Goodling and myself is 
the question of how Tim Griffin came to our attention. That was 
what I was asked. And I didn't know that answer at the time, as 
I have explained today.
    Ms. Sanchez. Time of the gentleman has expired.
    Mr. Johnson. Madam Chair, if I could have just 2 minutes 
more, with unanimous consent.
    Ms. Sanchez. Without objection, so ordered.
    Mr. Johnson. Mr. McNulty, in an e-mail titled ``McNulty 
Strikes Again"--you are familiar with that e-mail, right?
    Mr. McNulty. Yes, I mentioned that a moment ago, that I 
read that e-mail.
    Mr. Johnson. Yes. That was from Sara Taylor, correct?
    Mr. McNulty. That is right. That is what I read.
    Mr. Johnson. She is the political director at the White 
House under Karl Rove, correct?
    Mr. McNulty. She was, I think.
    Mr. Johnson. And she was very upset in that e-mail.
    Mr. McNulty. Yes, I saw the e-mail, right.
    Mr. Johnson. And you characterize it as being from an angry 
person.
    Mr. McNulty. I said that?
    Mr. Johnson. Well, I am asking you. Was she angry?
    Mr. McNulty. Oh, I don't know----
    Mr. Johnson. Think she was angry?
    Mr. McNulty [continuing]. If she was an angry person or 
not. I don't know. The e-mail speaks for itself.
    Mr. Johnson. She said that, ``McNulty refuses to say Bud is 
lazy, which is why we got rid of him in the first place.'' Do 
you remember seeing that in that e-mail?
    Mr. McNulty. Yes, I do.
    Mr. Johnson. Did you believe, at the time that you first 
read the e-mail, that Bud Cummins was lazy, and did you refuse 
to testify about that issue?
    Mr. McNulty. I don't remember refusing.
    Mr. Johnson. Well, actually----
    Mr. McNulty. No one has ever described Mr. Cummins to me as 
being lazy.
    Mr. Johnson. So you did not think he was lazy.
    Mr. McNulty. No, I didn't.
    Mr. Johnson. And so you disagreed with the characterization 
that Ms. Taylor had made.
    Mr. McNulty. I don't know where that was coming from. Maybe 
someone told her that. I just don't know.
    But as far as I was concerned, there was no issue like that 
associated with Mr. Cummins, and I don't recall anybody ever 
trying to encourage me to think there was. And I had to reason 
to suggest it when I testified.
    Mr. Johnson. Okay. All right.
    Now, according to Ms. Goodling's testimony before the 
Committee here in May, she said a decision was made that Kyle 
Sampson would personally inform you of the Attorney General's 
designation order. Did Kyle Sampson ever personally brief you 
about the delegation order that we have talked about earlier?
    Mr. McNulty. I just can't remember.
    When I was asked the question--was it, I think, by you or 
perhaps Mr. Delahunt?--I did try to put some reservation there 
that I just don't have any memory of that prior to reading that 
story. But if he did, it just doesn't stand out in my mind.
    Mr. Johnson. And, again----
    Ms. Sanchez. The time of the gentleman has expired.
    I would like to recognize Ms. Lofgren, the gentlewoman from 
California, for 5 minutes of questions.
    Ms. Lofgren. Thank you. Thank you, Madam Chairwoman.
    I want to explore a little bit the situation in Missouri.
    At the Department of Justice, Mr. Scholzman really oversaw 
what seems to have been a dramatic shift within the Civil 
Rights Division, particularly with respect to voting rights. 
And the focus really on the enforcement activities went from 
protecting the rights of eligible individuals to register and 
vote to encouragement of ID requirements and voter roll purge 
programs.
    And the case that Mr. Scholzman brought under the National 
Voting Rights Registration Act to force Missouri to purge its 
voter rolls is just one example.
    I am wondering, Mr. Scholzman came in almost immediately 
after Mr. Graves was replaced. Were you in on this selection? 
What can you tell us about Mr. Scholzman's selection?
    Mr. McNulty. Not much. I wasn't involved in any decision to 
have him become the interim there. I have no memory of being 
involved in any of that selection.
    That would have been in, again, relatively early stages of 
my time as deputy. I was confirmed on March 17, and it was 
probably about March when that change was being made.
    Ms. Lofgren. Okay.
    When Mr. Scholzman brought a case against four volunteers 
for a group known as ACORN on voter registration fraud, and 
that was the week before the election, contrary to the written 
guidance of DOJ stating that prosecutors and investigators 
``should be extremely careful not to conduct overt 
investigations during the pre-election period or while the 
election is under way.''
    Are you familiar with this ACORN case that was brought?
    Mr. McNulty. Yes.
    Ms. Lofgren. Did you have a role in approving the 
indictments in that case?
    Mr. McNulty. Yes, I will explain where the deputy's office 
came into that.
    And really quickly, I am going on the back of your last 
question. An individual in my office is involved in 
interviewing interims that go into offices--David Margolis--and 
so I am not clear, just sitting here today, what role he played 
in that selection. But it is quite likely that he was involved 
in that discussion. I just don't, personally, have any memory 
of that.
    Ms. Lofgren. Well, if I can----
    Mr. McNulty. Yes.
    Ms. Lofgren [continuing]. Mr. Scholzman says it was Mike 
Elston who had spoken to him prior to the indictments.
    Mr. McNulty. Oh, yes. I will switch to that subject now. 
That is the ACORN issue you are asking about.
    Ms. Lofgren. That is correct.
    Mr. McNulty. Okay. What happened was that sometime shortly 
before those indictments were returned, we received 
notification that there was an intention to seek the 
indictments. I am not sure if it was a phone call to Mike or a 
urgent report or something to that effect.
    We notified the Attorney General's Office that this was 
occurring. We told the Western District of Missouri to hold on 
until we had reviewed what was going on.
    We then checked with the Criminal Division responsible--the 
Public Integrity Section oversees this area of the law--and 
found out in discussing it with them and with this office in 
the Western District of Missouri and the assistant United 
States attorneys involved, some form of consultation, that the 
Criminal Division had no objection to this going forward at 
that time.
    And, therefore, we informed the Attorney General's Office 
to that effect and were told that there was no objection or to 
the case being sought.
    Ms. Lofgren. Well, what about the policy of the department 
that opposed bringing these indictments? Did you consider that?
    Mr. McNulty. Well, that is what we looked for when we 
consulted with the Criminal Division.
    The people who were responsible for developing that policy 
and overseeing that policy are the Public Integrity Section 
folks in the Criminal Division. And those same folks, who 
established that policy and police it, were the ones who said 
that this did not violate that policy and that it could be 
done. And once we were aware of that, we----
    Ms. Lofgren. Well, are you aware that Mr. Schlozman has now 
told the Senate that he wants to clarify that the Public 
Integrity Section never directed or advised him on this case?
    Mr. McNulty. Well, as best I know this issue, he----
    Ms. Lofgren. That is what we have been told, at least.
    Mr. McNulty. Right. It is a question of the word. I believe 
there is some communication about using the word ``directed'' 
versus seeking the advice.
    Ms. Lofgren. Well, it says directed or advised, is what he 
said.
    Mr. McNulty. Well, advised there I think may also be a 
question of whether or not he was being prompted to or advised 
to do something proactively as opposed to consulting and 
getting the input from that office. Because I am pretty 
confident that the office----
    Ms. Lofgren. Well, if I could, because that is 
contradictory to what we have been told. And if we could follow 
up in writing on this, I think that would help.
    Mr. McNulty. I am very happy to help you try to get the 
clear answer to it. But I think the record is that the Criminal 
Division was consulted and that he got the information he 
needed to know that it was appropriate to go forward. And I 
believe right now he is trying to make sure that he doesn't----
    Ms. Lofgren. Well, if we can count on your written 
clarification, I think that would be best.
    Mr. McNulty. Absolutely.
    Ms. Lofgren. And, if I may, with unanimous consent, I would 
like written clarification on one other item, if I may.
    Ms. Sanchez. Without objection.
    Ms. Lofgren. I serve on the House Administration Committee 
as well, and Chair the Elections Subcommittee. And we have been 
exploring with the Election Assistance Commission various 
communications between the Department of Justice and that 
commission, and have come across an e-mail between Hans von 
Spakovsky, formerly of the DOJ, about a deal that he believed 
he made with the EAC on how the DOJ would consider changing its 
position on whether voters could vote or not.
    And I would like to know whether it was practice for the 
DOJ to make deals about the proper interpretation of laws and 
whether this deal was brought to your attention.
    And I will submit the e-mails to you for your written 
response, seeing that my light is on.
    And I thank the gentlelady for her----
    Ms. Sanchez. And I thank the gentlewoman from California.
    Mr. Cannon is recognized for 5 minutes.
    Mr. Cannon. I thank you, Madam Chair.
    I want to thank you, Mr. McNulty, for being here with us 
today. You have been forthright. You have been directly 
responsive to questions, sometimes compound questions, and that 
is a little difficult. You have been thorough in your answers. 
And I appreciate that. And I think you have done your 
reputation a great service today with the way you have handled 
the questioning here.
    I would like to ask a couple questions about Will 
Moschella.
    After our review of thousands of pages of documents and 
testimony provided to this Committee, it is evident that Mr. 
Moschella had no role in the decision to fire any U.S. 
attorney, yet you directed him to testify before this Committee 
in early March.
    Do you agree with my statement that Mr. Moschella had no 
role in the decision to fire any of the U.S. attorneys?
    Mr. McNulty. That is correct.
    Mr. Cannon. Thank you.
    Some of the e-mails provided to this Committee show that 
you directed Mr. Moschella to testify. Can you tell us why?
    Mr. McNulty. Well, first of all, as to the previous 
question, he began as the principal associate Deputy Attorney 
General just shortly before the final process. And therefore I 
have no memory of his involvement.
    He did attend a meeting with the Attorney General on 
November 27. But again, that would have been the first weeks of 
his job as PADAG, so he had very little----
    Mr. Cannon. Context?
    Mr. McNulty [continuing]. Understanding. Yes, context and 
involvement.
    The simple answer to your question about Mr. Moschella's 
testifying is because I already had suffered enough and I 
wanted to look for a way to share the pain. [Laughter.]
    As you can see, testimony can always be a tricky business.
    But the simple fact is, well, there aren't that many people 
who are candidates for testimony on a matter that cuts across, 
sort of, leadership issues and so forth. And from time to time, 
you know, the PADAG is--that is the position he has--is stuck 
with the short straw. And that is how it happened in his case.
    Mr. Cannon. And, of course, he has worked for this 
Committee as well and is well-liked on the Committee and well-
respected. And I think he has acquitted himself very, very well 
in the process.
    Mr. McNulty. Well, Mr. Cannon, maybe I should be a little 
bit more fulsome, too.
    I mean, he also, we knew, would be an excellent witness 
because he is a very intelligent guy, and he prepared himself 
as well as he could and came here. And as I tried, he answered 
the questions as fully and completely as he knew at the time.
    Mr. Cannon. Yes. Based on everything you know, do you 
believe that Mr. Moschella testified truthfully and without 
intent to mislead when he testified before this Committee?
    Mr. McNulty. Absolutely.
    Mr. Cannon. Thank you.
    This has been a very difficult process for everyone. I hope 
that we can get to the truth of the matter fairly quickly.
    And I think that Mr. Keller would like me to yield to him, 
and I would be happy to do that.
    Mr. Keller. Thank you.
    I just have one question for you, Mr. McNulty.
    Earlier Mr. Delahunt was asking about, kind of, being cut 
out of the loop with a memorandum that essentially delegates 
certain personnel authority. And there is something called a 
control sheet on this issue dated February 24, 2006. And then 
sure enough this order was signed by the Attorney General on 
March 1, 2006.
    You recall Mr. Delahunt talking to you about that 
effectively----
    Mr. McNulty. Yes.
    Mr. Keller [continuing]. Cutting you out of the loop.
    I was curious about how that arose and what led to you 
being cut out of the loop. And I had the staff research it for 
me, and I see an e-mail from Monica Goodling on January 19, 
2006, a few days before, asking that this be done ``outside of 
the system,'' in effect around the deputy attorney.
    This is dated January 19, 2006, from Monica Goodling to 
Paul Corts. It says, ``Please do a delegation from A.G. to his 
chief of staff and White House liaison,'' which is her, ``by 
position titles. Okay to send directly to me outside of system. 
Thank you.''
    Were you aware that she was the one that requested, in 
effect, that you be cut out of the loop on this delegation of 
authority?
    Mr. McNulty. Well, that came to my attention, I believe, in 
the context of that article that appeared a month or so ago 
about this subject.
    Mr. Keller. Do you know why?
    Mr. McNulty. I don't know why. I just don't understand the 
full background to this. And, again, I would only be 
speculating. I just don't know.
    Mr. Keller. All right.
    Mr. Cannon, I yield back.
    Mr. Cannon. Reclaiming my time, I would ask unanimous 
consent to submit for the record or to be included in the 
record an article in the L.A. Times, ``U.S. Attorneys Fallout 
Seeps into the Courts,'' and just make a point----
    Ms. Sanchez. Without objection, so ordered.
    [The article follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Cannon. Thank you, Madam Chairwoman.
    Just to make a final point here----
    Ms. Sanchez. That is 2 seconds.
    Mr. Cannon. Maybe the Chair would indulge me for----
    Ms. Sanchez. We will grant you an additional 30 seconds.
    Mr. Cannon. ``Defense lawyers in a growing number of cases 
are raising questions about the motives of Government lawyers 
who have brought charges against their clients. In court 
papers, they are citing the furor over the U.S. attorneys 
dismissals as evidence that their cases may have been infected 
by politics.''
    This is not a neutral process that we are involved in. And 
I have tried to work very hard today to get all the questions 
out that we could ask Mr. McNulty. I thank the majority and 
also the Members of our side for their intensity. And hope that 
we could actually move on, beyond this issue, quickly, because 
it is important to the country.
    Thank you. And I yield back.
    Ms. Sanchez. Thank you, Mr. Cannon, for your cooperation.
    I would also like to thank Deputy Attorney General McNulty 
for his testimony today. I believe that your testimony will be 
a great help in helping us get to the truth in this entire 
matter.
    Without objection, Members will have 5 legislative days to 
submit any additional written questions, which we will then 
forward to you and ask that you answer as promptly as you can, 
to be made part of the record.
    Without objection, the record will remain open for 5 
legislative days for the submission of any other additional 
materials.
    And, again, I want to thank everybody for their time and 
their patience.
    And this hearing of the Subcommittee on Commercial and 
Administrative Law is adjourned.
    [Whereupon, at 2:23 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary
    Today's hearing is one of a series that the Judiciary Committee and 
this Subcommittee have held as part of our investigation into the 
unprecedented firings of nine United States Attorneys last year and 
related matters.
    To date, three serious concerns have come to light as a result of 
our investigation. First, we have learned of apparent 
misrepresentations to Congress. Our witness today--Deputy Attorney 
General Paul McNulty--testified before the Senate Judiciary Committee 
regarding these firings.
    Last month, the House Judiciary Committee received testimony from 
Monica Goodling, former Justice Department Liaison to the White House. 
Ms. Goodling said that Mr. McNulty's Senate testimony was ``incomplete 
or inaccurate in a number of respects.'' For example, she testified 
that Mr. McNulty:

        <bullet>  knowingly tried to minimize the White House's role in 
        the firings;

        <bullet>  falsely stated that he had no information on how Tim 
        Griffin was selected to be an interim U.S. Attorney;

        <bullet>  claimed that he knew nothing about Mr. Griffin's 
        alleged involvement in the notorious ``caging'' of black 
        voters, even though she had provided such information to him; 
        and

        <bullet>  withheld from the Committee the crucial fact that 
        Senator Domenici had complained to him about U.S. Attorney 
        Iglesias before he was fired

    We expect you, Mr. McNulty, to respond to these serious accusations 
during today's hearing.
    Second, we have uncovered a troubling effort to politicize the 
Justice Department. Although Mr. McNulty's statement claims that the 
Department is ``blind to partisan politics,'' Ms. Goodling admitted 
that she ``crossed the line'' by using political criteria when hiring 
immigration judges, Assistant U.S. Attorneys, and other career 
professionals in the Department.
    Politicization of the Justice Department, as former Deputy Attorney 
General Comey explained to this Subcommittee, undermines the very 
foundation of the Department's credibility and reputation for fairness.
    Your knowledge about these efforts to politicize the Department and 
your response is of critical concern.
    Third, despite several months of effort, we have been unable to 
find out the answer to a very simple question: who was responsible for 
putting these nine U.S. Attorneys on the firing list and why. Instead, 
we have run into contradictions and--to some degree--mutual finger 
pointing.
    Although some requests remain outstanding, we appreciate the 
Justice Department's efforts to make its employees and documents 
available in our investigation. We know, for example, that Mr. McNulty 
asserts that he has limited knowledge on this question.
    In contrast, the White House has failed to produce a single witness 
or document, and has offered only limited access under conditions that 
would make it impossible to get to the truth. We have thus had no 
choice but to serve subpoenas on the White House and on former White 
House counsel Harriet Miers. Although we have not yet received any 
response, we hope that cooperation will be forthcoming.
    The issues we are examining go to the heart of our Nation's 
commitment to justice. We know already that U.S. Attorneys were 
politically pressured with regard to their decisions to prosecute or 
not prosecute cases, and that Federal laws, such as the Presidential 
Records Act and the Hatch Act, may have been violated.
    The American people deserve the truth about these issues. We hope 
today's hearing will shed light on the facts so we can ensure our 
Federal system of justice does in fact do justice.

                                <F-dash>

 Answers to Post-Hearing Questions from the Honorable Paul J. McNulty, 
      Deputy Attorney General, United States Department of Justice
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Attachment
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
